<html>
<title> - WOMEN IN ACADEMIC SCIENCE AND ENGINEERING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                           WOMEN IN ACADEMIC 
                        SCIENCE AND ENGINEERING 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2007

                               __________

                           Serial No. 110-65

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

38-258 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant
























                            C O N T E N T S

                            October 17, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    12

                               Witnesses:

Dr. Donna E. Shalala, Professor of Political Science; President, 
  University of Miami
    Oral Statement...............................................    13
    Written Statement............................................    16
    Biography....................................................    20

Dr. Kathie L. Olsen, Deputy Director, National Science Foundation
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    26

Dr. Freeman A. Hrabowski, III, President, University of Maryland, 
  Baltimore County
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    33

Dr. Myron Campbell, Chair, Physics Department, University of 
  Michigan
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    38

Dr. Gretchen Ritter, Professor of Government; Director, Center 
  for Women's and Gender Studies, University of Texas at Austin
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    49

Discussion.......................................................    49

              Appendix: Answers to Post-Hearing Questions

Dr. Donna E. Shalala, Professor of Political Science; President, 
  University of Miami............................................    62

Dr. Kathie L. Olsen, Deputy Director, National Science Foundation    64

Dr. Freeman A. Hrabowski, III, President, University of Maryland, 
  Baltimore County...............................................    67

Dr. Myron Campbell, Chair, Physics Department, University of 
  Michigan.......................................................    69

Dr. Gretchen Ritter, Professor of Government; Director, Center 
  for Women's and Gender Studies, University of Texas at Austin..    70


               WOMEN IN ACADEMIC SCIENCE AND ENGINEERING

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Brian Baird 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                           Women in Academic

                        Science and Engineering

                      wednesday, october 17, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, October 17, the Subcommittee on Research and Science 
Education of the House Committee on Science and Technology will hold a 
hearing to examine institutional and cultural barriers to recruitment 
and retention of women faculty in science and engineering fields, best 
practices for overcoming these barriers, and the role that federal 
research agencies can play in disseminating and promoting best 
practices.

2. Witnesses

Dr. Donna Shalala, President, University of Miami.

Dr. Kathie Olsen, Deputy Director, National Science Foundation.

Dr. Freeman Hrabowski, President, University of Maryland Baltimore 
County.

Dr. Myron Campbell, Chair of Physics, University of Michigan.

Dr. Gretchen Ritter, Professor of Government, University of Texas at 
Austin.

3. Overarching Questions

        <bullet>  What is the current status of women in academic 
        science and engineering? How do recruitment, retention, 
        promotion and attrition rates differ for men and women in these 
        fields? How and why do these data vary by discipline and type 
        of institution?

        <bullet>  What are the greatest barriers to gender equity in 
        academic science and engineering? What have we learned about 
        what works and doesn't work to recruit and retain top female 
        scientists and engineers into tenure-track positions? To what 
        extent are best practices in recruitment and retention already 
        being implemented?

        <bullet>  What can the federal research agencies do to help 
        identify, promote and disseminate best practices across the 
        country? What responsibility do the agencies have to hold 
        funded institutions accountable for subtle cultural barriers?

4. Overview

        <bullet>  Although women earn half of the Bachelor's degrees in 
        science and engineering (S&E), they continue to be 
        significantly under-represented at the faculty level in almost 
        all S&E fields, constituting 28 percent (in 2003) of doctoral 
        science and engineering faculty in four-year colleges and 
        universities and only 18 percent of full professors.

        <bullet>  In 2006, the National Academies produced a report 
        entitled, ``Beyond Bias and Barriers: Fulfilling the Potential 
        of Women in Academic Science and Engineering.'' The report was 
        largely in response to the outcry over then Harvard President 
        Lawrence Summers' 2005 remarks, in which he argued that 
        biological differences may help explain female under-
        representation in academic S&E.

        <bullet>  The National Academies panel, in addition to 
        dismissing the relative significance of any biological 
        differences, made a series of recommendations to all 
        stakeholders, including universities, professional societies 
        and the Federal Government, to address cultural and 
        institutional gender bias in academic S&E.

        <bullet>  The National Academies panel main recommendation to 
        Congress was to carry out regular oversight hearings to 
        investigate enforcement activities. Most of the experts 
        contacted in preparation for this hearing agreed that while the 
        Federal Government could do a better job with enforcement of 
        anti-discrimination laws at universities, the more subtle 
        cultural barriers present a much greater challenge to women 
        seeking academic careers.

        <bullet>  The National Science Foundation (NSF) established the 
        ADVANCE program in 2000 to develop approaches for increasing 
        the representation and advancement of women in academic science 
        and engineering careers. While previous NSF programs for the 
        advancement of women focused on support for individual 
        scientists, the goal of ADVANCE grants is institutional 
        transformation.

5. Current Status of Women in Academic Science and Engineering

    According to data compiled by NSF, in 2003, women held nearly 28 
percent of all full-time science and engineering (S&E) faculty 
positions. Specifically, they constituted 18 percent of full 
professors, 31 percent of associate professors and 40 percent of 
junior, or assistant professors.
    Most of the social science disciplines and psychology are already 
dominated by women at both the graduate level and in faculty positions. 
The percentage of women earning Ph.D.'s in other S&E fields has grown 
steadily in the last 30 years, and has already exceeded 50 percent in 
the life sciences. However, in 2003 women constituted 34 percent of 
assistant professor appointments in the life sciences, and slightly 
less at research universities. Half of this drop-off can be accounted 
for by including only the available pool of Ph.D.'s\1\ in the life 
sciences: 42 percent in 2003. But attrition is still high in the step 
from completion of training to faculty appointment. Female under-
representation in life sciences faculties continues through the 
associate and full professor levels. Notably, while the physical 
sciences continue to have low representation at the graduate level (20 
percent), relative to the available pool of Ph.D.'s the physical 
sciences actually show better representation for women in tenure-track 
faculty positions than the life sciences and other fields with a 
greater percentage of women Ph.D.'s. The figure below shows these data 
for assistant and associate professor positions across all fields.\2\
---------------------------------------------------------------------------
    \1\ In the case of assistant professor appointments, the available 
pool is the sum of Ph.D.'s earned by women in the six-year period 
preceding appointment.
    \2\ Figure and related data is this section from National Academies 
report, ``Beyond Bias and Barriers.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Women who start out on academic pathways in S&E fields leave for 
other career paths at higher rates than their male counterparts, even 
though for the fields in which attrition is highest, women show 
increased representation at the postdoctoral level. Postdoctoral 
positions are a necessary prerequisite to faculty jobs in most S&E 
fields. From among those who leave post-faculty appointment but pre-
tenure review, men are more likely to move into other employment 
sectors and women are more likely to move into adjunct positions. 
However, in most fields, women and men faculty who are reviewed receive 
tenure at similar rates. As faculty move up in rank, there are again 
differences between men and women, this time in promotions, awards and 
even salary.

6. Institutional and Cultural Bias and Barriers

    In 2006, the National Academies produced a report entitled, 
``Beyond Bias and Barriers: Fulfilling the Potential of Women in 
Academic Science and Engineering.'' The report was largely in response 
to the outcry over then Harvard President Lawrence Summers' 2005 
remarks, in which he attributed what many thought to be a greatly 
exaggerated level of significance to a biological explanation for 
female under-representation in academic S&E. The NAS panel reviewed the 
existing literature on gender differences in cognition and biology and 
concluded that, ``if systematic differences between male and female 
scientific and mathematical aptitude and ability do exist, it is clear 
that they cannot account for women's under-representation in academic 
science and engineering.'' \3\ Instead, the panel focused on the need 
to fix institutional, social and cultural bias and barriers.
---------------------------------------------------------------------------
    \3\ Critics of the NAS report disparage the panel for dismissing 
the significance of biology before all of the scientific evidence is 
in.
---------------------------------------------------------------------------
    To this end, the National Academies panel made a number of 
recommendations to all stakeholders. The panel called on university 
presidents and provosts to provide clear leadership in changing the 
culture and structure of their institutions, and deans and department 
chairs to take responsibility for implementing changes to recruiting, 
hiring, promotion, and tenure practices. They recommended that higher 
education organizations form an inter-institution monitoring 
organization and that scientific and professional societies help set 
professional and equity standards across the activities they lead, such 
as awards and conferences. The recommendations made to the Federal 
Government ranged from rigorous enforcement of federal anti-
discrimination laws by enforcement agencies to provision of workshops 
to minimize gender bias by NSF and other federal funding agencies. The 
full list of recommendations is in the report summary available from 
the National Academy Press: http://books.nap.edu/
catalog.php?record<INF>-</INF>id=11741
    The status of women in academic S&E has improved appreciably in the 
last three decades, and institutions across the country are continuing 
to address institutional barriers to gender equity. However, the 
National Academies panel argues that changes in institutional policies 
are necessary but not sufficient--even many policies that appear on the 
surface to be equitable in fact disadvantage women. For example, many 
women who want children struggle with the intersection of the tenure 
clock and their biological clock. Many more men are also making work/
life balance career decisions.\4\ In order to attract top faculty 
candidates who want both career and family, a number of universities 
offer the possibility of an extension of the tenure clock--the number 
of years to tenure review--for assistant professors who have a child 
while under the clock. But in most cases young faculty feel pressure 
not to request this extension for fear that they will be judged 
differently in the tenure review process. In this case, cultural norms 
undermine a well-intentioned policy, and women, who are more often the 
primary caregivers for infants (especially if they breast feed), are 
disproportionably disadvantaged. Some universities have instituted an 
automatic rather than voluntary extension of the tenure clock in an 
attempt to overcome those cultural barriers.
---------------------------------------------------------------------------
    \4\ Currently, 42 percent of women in tenure and tenure-track 
careers have children, while 50 percent of their male colleagues have 
children.
---------------------------------------------------------------------------
    The report also discusses at length a phenomenon known as 
``implicit bias,'' in this case an implicit assumption of what a 
scientist is supposed to look like, i.e., a man, and probably a white 
man. The panel cites a Swedish\5\ study of peer-review scores, in which 
men received systematically higher competence ratings by their peers 
than equally productive women. In fact, women postdoctoral fellowship 
applicants included in that study had to be twice as productive (as 
measured by defined, quantitative measures of productivity) than their 
male counterparts to be judged equally competent. This field of 
research is still relatively young, but the collection of evidence 
supporting the notion of implicit gender bias in academic S&E continues 
to grow. Minority-group women, as members of two major demographic 
groups historically excluded from the scientific enterprise, face their 
own unique set of challenges.
---------------------------------------------------------------------------
    \5\ Sweden has been named by the United Nations as a world leader 
in gender equity.
---------------------------------------------------------------------------
    The list of cultural norms that appear to disadvantage women also 
includes the favoring of disciplinary over interdisciplinary research 
and publications, and the only token attention given to teaching and 
other service during the tenure review process.\6\ Thus it seems that 
it is not necessarily conscious bias against women but an ingrained 
idea of how the academic enterprise ``should be'' that presents the 
greatest challenge to women seeking academic S&E careers. Overcoming 
these cultural barriers is much more difficult than just enforcing 
anti-discrimination laws or making university policies more family 
friendly. And even among those who passionately advocate for change, 
there is no consensus about how or if to modify some of those core 
practices that have defined the academic enterprise for generations.
---------------------------------------------------------------------------
    \6\ While the reasons are unclear, it appears that women are more 
likely to engage in interdisciplinary and collaborative research, and 
to put more energy and time into teaching and mentoring activities than 
their male colleagues.

7. NSF ADVANCE Program

    The National Science Foundation established the ADVANCE grant 
program to develop approaches for increasing the representation and 
advancement of women in academic S&E careers through institutional 
transformation. Nearly 30 institutions have been awarded five-year 
ADVANCE grants since 2001. While previous NSF programs for the 
advancement of women focused on support for individual scientists, the 
goal of ADVANCE grants is to tackle the institutional and cultural 
barriers to all women. These grants have enabled funded institutions to 
experiment with innovative recruitment and retention policies, as well 
as targeted mentoring, workshops on implicit bias, and other activities 
to raise awareness among departmental chairs and S&E faculty at large 
about the existence of real barriers to women scientists and engineers. 
As the witnesses in today's hearing will testify, the ``rubber hits the 
road'' at the departmental level, where Department Chairs are 
responsible for implementing the policies and goals established by 
their institutions' leaders.
    Many of the activities funded under the ADVANCE program were cited 
by the National Academies panel as examples of policies and programs 
that seem to be making a difference. In particular, they recommended 
workshops to minimize gender bias, and NSF and other research agencies 
have already hosted such workshops in the physics and chemistry 
communities. Grantees share those and other best practices through 
their websites and annual meetings of principal investigators, and NSF 
plans to award Partnerships for Adaptation, Implementation, and 
Dissemination (PAID) Awards in 2008. Two of the witnesses on today's 
panel are at universities that have or had ADVANCE grants.

8. Questions for Witnesses

Donna Shalala

        <bullet>  Please describe the findings and recommendations of 
        the National Academies report, Beyond Bias and Barriers, in 
        particular the recommendations directed toward the Federal 
        Government and that are relevant to issues of faculty 
        recruitment, retention and promotion.

        <bullet>  What are the biggest challenges and most promising 
        solutions to achieving gender equity in academic science and 
        engineering?

        <bullet>  As President of a university, what policies have you 
        instituted on your own campus to ensure gender equity, and how 
        to do you ensure compliance at the departmental level?

Kathie Olsen

        <bullet>  Please describe what the National Science Foundation 
        (NSF), through its ADVANCE program for institutional 
        transformation, has learned about the biggest challenges and 
        most-promising solutions to achieving gender equity in faculty 
        recruitment, retention and general climate in science and 
        engineering fields.

        <bullet>  What is NSF doing to broadly disseminate and 
        encourage best practices identified through the ADVANCE 
        program?

        <bullet>  In addition to the activities already described, what 
        else can NSF and other federal research agencies do to promote 
        and ensure a more favorable environment for women in academic 
        science and engineering fields?

Freeman Hrabowski

        <bullet>  Please describe the programs that you have been able 
        to carry out through your university's ADVANCE grant. What are 
        the biggest challenges and greatest successes in trying to 
        achieve institutional change toward greater gender equity on 
        your campus? How do you ensure compliance at the departmental 
        level?

        <bullet>  The National Academies report, Beyond Bias and 
        Barriers, described a ``conspiracy of silence'' regarding 
        minority-group women. What are the greatest challenges faced by 
        minority-group women scientists and engineers? Have you been 
        able to identify institutional policies or practices that 
        successfully mitigate these challenges?

        <bullet>  Beyond funding ADVANCE grants at a handful of 
        universities, what can the National Science Foundation and 
        other federal funding agencies do to help identify and 
        encourage best practices in faculty gender equity across the 
        country?

Myron Campbell

        <bullet>  Please describe the efforts you have undertaken as 
        Chair of your Physics Department to recruit and retain women 
        faculty. How did you come to take this on as a priority? What 
        are your biggest challenges and greatest successes?

        <bullet>  Beyond funding ADVANCE grants at a handful of 
        universities, what can the National Science Foundation and 
        other federal funding agencies do to help identify and 
        encourage best practices in faculty gender equity across the 
        country?

        <bullet>  Please describe the purpose of the American Physical 
        Society (APS) workshop on gender equity that you participated 
        in last May. What can APS and similar societies do to help 
        promote gender equity in science and engineering fields?

Gretchen Ritter

        <bullet>  Please describe efforts on your own campus to 
        identify and address any barriers to recruitment and retention 
        of women faculty, especially in science and engineering 
        departments.

        <bullet>  What are the biggest challenges and most promising 
        solutions to achieving gender equity in academic science and 
        engineering across the country?

        <bullet>  Beyond funding ADVANCE grants at a handful of 
        universities, what can the National Science Foundation and 
        other federal funding agencies do to help identify and 
        encourage best practices in faculty gender equity across the 
        country?
    Chairman Baird. Good afternoon and welcome to our guests. 
Our distinguished panel is here, and we are joined by my dear 
friend and colleague, Ranking Member Dr. Vern Ehlers. This is a 
particularly exciting meeting--and I am supposed to--I guess I 
should say the hearing will come to order. So now, having said 
that, we can get to what really matters.
    It is particularly exciting for all of us here on this 
committee, which has a passionate interest in science 
education. The Speaker of the House Nancy Pelosi is 
particularly committed to this issue as is our Full Committee 
Chairman Bart Gordon. And I want to also single out Eddie 
Bernice Johnson, who was previously the Ranking Member of this 
subcommittee. Sadly, Ms. Johnson cannot be with us today due to 
the death of her mother. We send our condolences to Eddie B. 
She is a dear friend and a tireless champion of women and 
minorities in science, and it is a deeply unfortunate 
juxtaposition of events that the hearing which she has long 
labored to help put together, she is unable to attend, but she 
wants us to send all of you here her regards, and we will 
convey to her, of course, testimony that we receive today.
    Women are receiving Ph.D.s in steadily increasingly 
numbers. In fact, in some fields, women have achieved parity 
with men at the graduate level. Unfortunately, however, they 
still hold only 28 percent of full-time science and engineering 
faculty positions, and only 18 percent of full professor 
positions.
    Today's hearing will explore what happens to the available 
pool of women who have stuck it out all of the way through a 
Ph.D. Those accomplished women leave academia in greater 
numbers than men, and those who stay in academia continue to be 
promoted, recognized for academic achievement, and paid at 
lower rates than their male colleagues.
    A National Academies panel recommended that the Department 
of Justice and other enforcement agencies put more effort into 
enforcing anti-discrimination laws on university campuses; 
however, the same panel implied that the most intractable 
barriers to women in academic science and engineering are 
intractable precisely because they will not be overcome through 
even the most rigorous enforcement of the law. These are 
barriers created not by willful individuals or institutions. 
Rather, they are barriers created by the collective effect of 
many small and usually subtle incidents of subconscious bias on 
the part of well-intentioned individuals and even by some of 
the seemingly gender-neutral practices in academic science and 
engineering.
    We invited today's witnesses to help us understand exactly 
what the barriers are, how we might continue to break them 
down, and specifically how the federal research agencies can 
improve the status of women in academic science and 
engineering.
    We cannot afford to continue losing our best and brightest 
woman, or minorities, for that matter, from academic science 
and engineering careers. The seeds of progress in U.S. 
competitiveness, security, and well being are formed in our 
college and university research laboratories. The interaction 
and collaboration of diverse individuals with differing 
perspectives enriches the entire process and stimulates even 
greater discovery and innovation.
    I am particularly interested in the importance of role 
models and mentors, both for minority students and women 
students, because I believe that is absolutely critical. Most 
of us who went on and got doctorates can point to someone in 
the pipeline who inspired us and led us to believe that we, 
too, could do what they are doing and that it is worth the 
effort and time and price to get there, and so I am 
particularly interested in your thoughts on that as well today.
    I also want to note that this is the first in multiple 
hearings that we plan to hold in this committee to look at the 
involvement of women in STEM fields. In fact, we will hold a 
hearing soon on how we might encourage more girls to stick with 
math and science studies through high school, college, and 
beyond, since attrition occurs at every step of the way. Today 
we are looking at the attrition at the completed end of the 
continuum, so to speak, folks who have obtained Ph.D.s, but 
there are so many qualified young girls and women who have the 
mental capacity and the interest, but for some various reasons 
along the way, we lose from the pipeline in the STEM fields, 
and we want to do what we can to stop that and encourage 
greater continuation of the studies.
    So I want to thank all of the witnesses--as you can see, we 
will introduce them in a moment--a particularity capable and 
impressive panel.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good afternoon and welcome to this hearing on Women in Academic 
Science and Engineering. I want to thank my dear friend Ms. Johnson for 
requesting this hearing and for her tireless work over the years to 
increase diversity in science and engineering. Sadly, Ms. Johnson 
cannot be with us today due to the death of her mother.
    Women are receiving Ph.D.s in steadily increasing numbers. In fact, 
in some fields, women have achieved parity with men at the graduate 
level. Unfortunately, however, they still hold only 28 percent of all 
full-time science and engineering faculty positions, and only 18 
percent of full professor positions.
    Today, we want to explore what happens to the available pool of 
women who have stuck it out all the way through a Ph.D. These 
accomplished women leave academia in greater numbers than men, and 
those who do stay in academia continue to be promoted, recognized for 
academic achievement, and paid at lower rates than their male 
colleagues.
    A National Academies panel recommended that the Department of 
Justice and other enforcement agencies put more effort into enforcing 
anti-discrimination laws on university campuses. However, the same 
panel implied that the most intractable barriers to women in academic 
science and engineering are intractable precisely because they will not 
be overcome through even the most rigorous enforcement of the law. They 
are barriers created not by willful individuals or institutions. 
Rather, they are barriers created by the collective effect of many 
small and usually subtle incidents of subconscious bias on the part of 
well-intentioned individuals and even by some of the seemingly gender-
neutral practices in academic science and engineering.
    We invited today's witnesses to help us understand exactly what 
those barriers are, how we might continue to break them down, and 
specifically how the federal research agencies can help improve the 
status of women in academic science and engineering.
    We cannot afford to continue losing our best and brightest women, 
or minorities for that matter, from academic science and engineering 
careers. The seeds of progress in U.S. competitiveness, security and 
well-being are formed in our colleges and universities' research 
laboratories. The interaction and collaboration of diverse individuals 
with differing perspectives enriches the entire process and stimulates 
even greater discovery and invention.
    I also want to note that this is the first in multiple hearings 
that we plan to hold to look at the involvement of women in STEM 
fields. In fact, we will hold a hearing soon on how we might encourage 
more girls to stick with math and science studies through high school, 
college and beyond, since attrition occurs at every step along the way.
    I thank all of the witnesses for being here today and I look 
forward to your testimony.

    Chairman Baird. And at this point, I will recognize my dear 
friend and colleague Dr. Ehlers. I think we have been joined by 
Ralph Hall, the senior Member of our committee. Ralph, thank 
you for joining us. Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman, thank you very much 
for holding this hearing. It is a very important topic.
    Understanding the difficulties that female faculty faces is 
challenging. The climate is changing, but it is still an uphill 
battle to get faculty of either gender to have frank 
conversations about this historically valid, volatile topic. 
Nevertheless, as the National Academies' 2006 Beyond Bias and 
Barriers report pointed out, higher education must change both 
the culture and structure of its institutions so that obstacles 
to women advancing in science and engineering are removed.
    I have spent a lot of my time in Congress working to 
improve STEM education at the K-12 levels. And I have to 
comment that today's topic is not as distanced from elementary 
and secondary education as you might think. Without role models 
along every step of the way, we face an impossible task to 
encourage young girls to pursue careers in science and 
engineering, and it is very important to have elementary and 
secondary schoolteachers who are female, and obviously, enjoy 
math and science. The best role models tend to be happy ones, 
not women who are regretting their decision to stick it out in 
science and engineering because they are perhaps subject to 
pervasive negative attitudes from their colleagues. Students 
are quick to recognize which professors like their jobs, and 
students will be influence, accordingly, about their own career 
goals.
    I have been fortune to have female colleagues in physics 
from the time I was an undergraduate student at Calvin College, 
straight though my graduate studies and to my time as a Physics 
Professor. But of course, these women were always far 
outnumbered by their male colleagues. Even through significant 
progress has occurred since I left academia, many institutions 
are still in need of dissolving antiquated perceptions and the 
actions that come with them about the appropriateness of women 
in science and engineering. And female students, occasionally, 
must also dissolve their perception.
    I have always made a point in speaking to my students and 
to the public about this issue to point out how strange it is 
in America. You go to China, roughly 50 percent of the 
scientists are female. You go to Russia, you go to many other 
countries, and it is the same. It simply can't be true that 
American women are less capable in math and science than the 
women of Russia, China, and a number of other countries. It has 
to be a cultural issue, and we have to change our culture and 
recognize the problems of the culture and change the culture 
accordingly.
    And I don't want to bore my colleagues here, but I have an 
example I have often given with my daughter, who had As all the 
way through elementary school, in every subject for that 
matter, but especially in math. She got to high school, started 
Algebra, got an A on the first test, A-minus on the second, B 
on the third and so forth. And I said we have to have a little 
talk. What is going on here? She said well, you know girls 
can't get math. We had never had that perception through eight 
years of education. She got to high school, that was the 
perception, and she felt she had to meet it. But after a little 
conversation, she went back to conquer the world and got As the 
rest of the way through and took calculus in college and became 
an English major, which was perfectly fine with me. I didn't 
expect her to major in science, but at least get enough so that 
it will help you in every career you have taken. And this 
happened to both of our daughters, and they both have done 
extremely well, partly because of the facility they learned in 
taking calculus, and also I asked them to take computer 
programming. Those are skills, those are ways of thinking, that 
are of value in almost any position you might take today.
    I look forward to haring from our witnesses about some of 
the innovative programs that are making a difference in 
recruiting and retaining female faculty, and how we can build 
upon these innovative programs. Thank you very much, and I 
yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Understanding the difficulties that female faculty face is 
challenging. The climate is changing, but it is still an uphill battle 
to get faculty of either gender to have frank conversations about this 
historically volatile topic. Nevertheless, as the National Academies' 
2006 ``Beyond Bias and Barriers'' report pointed out, higher education 
must change both the culture and structure of its institutions so that 
obstacles to women advancing in science and engineering are removed.
    While I have spent a lot of my time in Congress working to improve 
STEM education at the K-12 levels, today's topic is not as distanced 
from elementary and secondary education as you might think. Without 
role models along every step of the way, we face an impossible task to 
encourage young girls to pursue careers in science and engineering. The 
best role models tend to be happy ones, not women who are regretting 
their decision to stick it out in science and engineering fields 
because they are subject to pervasive negative attitudes. Students are 
quick to recognize which professors like their jobs and be influenced 
accordingly about their own career goals.
    I have been fortunate to have female colleagues from the time I was 
an undergraduate student at Calvin College straight through to my time 
as a Physics Professor, but of course, these women were always far 
outnumbered by their male colleagues. Even though significant progress 
has occurred since I left academia, many institutions are still in need 
of dissolving antiquated perceptions--and the actions that come with 
them--about the appropriateness of women in science and engineering.
    I look forward to hearing from our witnesses about some of the 
innovative programs that are making a difference in recruiting and 
retaining female faculty, and how we can build upon them.

    Chairman Baird. Thank you very much, Dr. Ehlers.
    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this hearing to examine 
institutional and cultural barriers to the recruitment and retention of 
women faculty in science and engineering fields. It is important for 
the Federal Government to encourage best practices to overcome these 
barriers.
    Women earn half of the Bachelor's degrees in science and 
engineering (S&E), but they continue to be significantly under-
represented at the faculty level in almost all S&E fields. It is 
important that Congress provide oversight to tackle this discrepancy in 
order to be sure that the country benefits from having the best-and-
the-brightest doing research and teaching.
    Today we are going to follow through on the National Academies 
recommendation that Congress oversee the efforts to break-down the 
biases that are impeding women's entry and retention in science and 
engineering academia. We are going to find out what is working and 
learn what challenges remain. We hope to help spread the best practices 
and encourage the continued progress towards a more representative 
scientific faculty.
    To all the witnesses--thank you for taking time out of your busy 
schedules to appear before us today. I look forward to hearing your 
testimony.

    Chairman Baird. At this time, I want to introduce our 
witnesses, and I want to thank, particularly, our staff on the 
Science Committee for helping invite such a distinguished panel 
of witnesses.
    And our protocol here is that you have five minutes to 
offer your comments. Obviously, each of you could probably give 
us an insightful half-day or full-day or multiple-day 
discussion of this issue, but we can keep the opening responses 
fairly brief, then we can have a good give and take. And it is 
a friendly committee here, and we look very much forward to 
your comments.
    Our first speaker--I will introduce all of the witnesses, 
and then following that, each will offer their comments. Dr. 
Donna Shalala really needs no introduction. She is President of 
the University of Miami, before that, served for eight years as 
Secretary of Health and Human Services and has a long, 
distinguished career prior to that as well.
    Dr. Kathie Olsen is the Deputy Directory at the National 
Science Foundation. Dr. Freeman Hrabowski is president of the 
University of Maryland Baltimore County; Dr. Myron Campbell, 
Chair of the Department of Physics, at the University of 
Michigan; and Dr. Gretchen Ritter, Professor of Government and 
the Director of the Center for Women's and Gender Studies at 
the University of Texas at Austin. Thank you to all of you for 
being here. Our witnesses, as I mentioned, will have five-
minute testimony, and if any other Members wish to offer 
comments, they will be invited to do so. We have been joined by 
Dr. Jerry McNerney from California.
    We will start now with Dr. Shalala. Thank you.

   STATEMENT OF DR. DONNA E. SHALALA, PROFESSOR OF POLITICAL 
            SCIENCE; PRESIDENT, UNIVERSITY OF MIAMI

    Dr. Shalala. Thank you very much, Chairman Baird, Ranking 
Member Ehlers, and Members of the Subcommittee. Thanks for the 
opportunity to testify, and I am going to specifically testify 
on the report of the National Academies' Beyond Bias and 
Barriers, Fulfilling the Potential of Women in Academic Science 
and Engineering, a panel that I chaired for the National 
Academy of Sciences. I am a member of the Institute of Medicine 
of the National Academies.
    The report finds that while the U.S. clearly must take 
steps to maintain its scientific and engineering leadership in 
a climate of increasingly economic and educational 
globalization, we cannot take advantage of our talent and our 
human capital because women face significant barriers in every 
field of science and engineering. This crisis calls for a 
transformation of the academy, which requires action by 
educational leaders and the support of federal funding 
agencies, foundations of government agencies and of Congress.
    Eliminating gender bias in universities requires immediate 
and overreaching reform and decisive action by university 
administrators, by professional societies, by government 
agencies and by Congress. Let me talk a little about our 
findings. I don't want to take too much time from my other very 
distinguished colleagues.
    We found that women have the ability to and drive to 
succeed in science and engineering. Women who are interested in 
science and engineering careers are lost at every educational 
transition, which is a point that you made, Mr. Chairman. The 
problem is not simply that loss through the pipeline because in 
the rank of full professor at the top research universities, 
women, on the average, hold less than 15 percent of tenured 
faculty positions in the social, behavioral, and life sciences 
and dramatically less than that in all of the other fields of 
science and engineering. Women are likely to face 
discrimination in every field of science and engineering, and a 
substantial body of evidence establishes that most people--this 
is a very important finding: both men and women hold implicit 
biases.
    Evaluation criteria contained arbitrary and subjective 
components that disadvantage women because women faculty are 
paid less, promoted more slowly, receive fewer honors and hold 
fewer leadership positions than men. Academic organizational 
structures and rules contribute significantly to the under-use 
of women in academic science and engineering. The consequences 
of not acting will be detrimental to this country's 
competitiveness.
    Our recommendations are many, and let me just summarize 
them. We recommend to federal funding agencies and foundations 
to federal agencies and to Congress as follows: federal funding 
agencies and foundations should counter these biases and begin 
to make full use of our full talent pool in this critical area 
by making sure that all rules and regulations support the full 
participation of women. All science research funding agencies 
should provide workshops on and expand research support for 
gender bias, collect, store, and publish composite information 
for all funding applications and awards, provide funding 
opportunities for dependent care support including attendance 
at work-related conferences and meeting and interim technical 
or administrative support during dependent-care-related leaves 
of absence. The Packer Foundation and NIAID have funded such 
programs that could be models for other granting agencies. And 
expand support for research on the efficacy of organizational 
programs designed to reduce gender bias and access and advance 
a funded model program.
    Federal agencies should also lay out clear guidelines, 
leverage resources and rigorously enforce antidiscrimination 
laws in all institutions of higher education to increase the 
science and engineering talent developed in this country.
    On this point, I want to make a point as a leader of an 
institution that has a football team. I hear more about gender 
equity in our sports programs from a combination of federal 
agencies and the NCAA than I do about gender bias in the hiring 
and promotion of women at the institution. And one of the 
recommendations that we made here, which very much came out of 
my experience with sports--Freeman, luckily, doesn't have to 
worry about a football team, right? Chess--is that we need a 
similar kind of organization like the NCAA that holds us 
accountable and that has incentives to make sure we are doing 
what we should be doing. I am an expert on NCAA rules. I know a 
lot about Title IX, but more because of sport programs than 
because of educational programs, and that is something that 
Congress can clearly fix.
    Congress, because of the insidious ways in which bias can 
permeate even an environment that aspires to transparency, like 
the Academy, has to direct its full attention, as this 
committee is, to enforcing those antidiscrimination laws, 
including regular oversight hearings to investigate the 
enforcement activities of the Department of Education, the 
EEOC, the Department of Labor, and the science-granting 
agencies.
    We discovered many challenges, but also promising solutions 
to the problems we identified. The most significant challenge 
is how deeply ingrained gender and racial biases are in our 
society. Too many excellent scientists and engineers opt out 
because of what they perceive as a hostile climate for women in 
hiring, tenure, promotion, and compensation. But ongoing 
efforts to identify and examine biases have begun to change 
recruitment, hiring, and retention processes at many 
universities, and they show a great deal of promise.
    Let me give you some examples: in 2006, NSF, NIH, and DOD 
hauled in 60 department chairs of chemistry department, and 
worked with them to identify strategies that chemistry 
departments, universities and federal agencies could implement 
to encourage and enable broader participation of women in 
academic research careers. We recommended that NIH, DOE, and 
NSF do that in other disciplines. That is a pretty simple, 
straightforward process: bring in the department chairs and 
talk to them about what the research shows and what they might 
do to transform their own department. An NSF advanced funded 
program at the University of Wisconsin Madison provides onsite 
workshops for department chairs and search committee chairs. 
And an uncommonly effective model which I developed as the 
Chancellor of the University of Wisconsin at Madison is the 
Women in Science and Engineering Leadership Institute, a 
centralized, highly visible, administrative structure to 
address a number of impediments to women's academic 
achievement. It is endorsed by top-level administrators, and it 
uses the UW Madison as a living laboratory to study the problem 
and implement solutions.
    For me as President of the University of Miami, my strategy 
is to do everything you can think of because we don't know one 
program is affected. They call me Boom-Boom because I believe 
in using strategy that anyone has successfully used to try to 
do something.
    Last year, our faculty committee on women and minorities 
produced a report on diversity and tenure-tracked faulty, 
focusing exclusively on the areas of science, technology, 
engineering, math, and medicine. We did, recently, hire an 
associate dean for faculty diversity, which will work with the 
Provost, focused on our medical school in particular. We have a 
bridging program. We have a post-doc funding program. We run 
workshops for our search committees as well as for our faculty. 
We are focused, not just on gender, but also on race, and our 
workload relief program provides release from teaching 
responsibilities for primary caregivers after the birth or the 
adoption of a child and for a one-year extension of their 
tenure clocks.
    We can't afford to operate the old ways. I was once in 
Japan, recently, actually, and they kept saying to me what are 
you going to do to really be competitive with the rest of the 
world, and my answer was we are going to do something the rest 
of them are not going to do. We are going to use all of our 
talent. The only way the U.S.A. can be competitive, we have to 
reach women and minorities. We have to use all of our talent to 
be competitive.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Shalala follows:]
                 Prepared Statement of Donna E. Shalala
    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, thank you for the opportunity to testify on the Report of 
the National Academies: Beyond Bias and Barriers: Fulfilling the 
Potential of Women in Academic Science and Engineering. The report 
finds that while the United States clearly must take steps to maintain 
its scientific and engineering leadership in a climate of increasing 
economic and educational globalization, it cannot take advantage of all 
of its human capital, because women face significant barriers in every 
field of science and engineering.
    This crisis clearly calls for a transformation of academic 
institutions. That requires action by educational leaders and also the 
support of federal funding agencies and foundations, governmental 
agencies, and Congress.
    We must remove the obstacles that are holding women back in science 
and engineering fields. Eliminating gender bias in universities will 
require immediate, overarching reform and decisive action by university 
administrators, professional societies, government agencies, and 
Congress. Nothing less than a coordinated effort across public, 
private, and governmental sectors will achieve the reforms necessary 
for America to retain its competitiveness on the global stage.

Findings

    The report finds that:

        <bullet>  Women have the ability and drive to succeed in 
        science and engineering

        <bullet>  Women who are interested in science and engineering 
        careers are lost at every educational transition

        <bullet>  The problem is not simply that loss through the 
        pipeline, because in the rank of full professor at the top 
        research institutions women on average hold less than 15 
        percent of tenured faculty positions in the social, behavioral, 
        and life sciences, and dramatically less than that in the all 
        other fields of science and engineering

        <bullet>  Women are very likely to face discrimination in every 
        field of science and engineering

        <bullet>  A substantial body of evidence establishes that most 
        people--both men and women--hold implicit biases

        <bullet>  Evaluation criteria contain arbitrary and subjective 
        components that disadvantage women because women faculty are 
        paid less, promoted more slowly, receive fewer honors, and hold 
        fewer leadership positions than men, and these discrepancies 
        aren't based on any of the standard measures of performance

        <bullet>  Academic organizational structures and rules 
        contribute significantly to the under-use of women in academic 
        science and engineering

        <bullet>  The consequences of not acting will be detrimental to 
        the Nation's competitiveness

Recommendations

    The report's recommendations to federal funding agencies and 
foundations, to federal agencies, and to Congress are as follows:

Federal funding agencies and foundations should counter these biases 
and begin to make full use of our full talent pool in this critical 
area, by making sure that all rules and regulations support the full 
participation of women. All science research funding agencies should:

        <bullet>  Provide workshops on, and expand research support 
        for, gender bias

        <bullet>  Collect, store, and publish composite information for 
        all funding applications and awards

        <bullet>  Provide funding opportunities for dependent care 
        support--including attendance at work-related conferences and 
        meetings, and interim technical or administrative support 
        during dependent care related leave of absence--the Packard 
        Foundation and NIAID have funded such programs that could be 
        models for other granting agencies

        <bullet>  Expand support for research on efficacy of 
        organizational programs designed to reduce gender bias. NSF and 
        ADVANCE have funded model programs.

Federal agencies should lay out clear guidelines, leverage resources, 
and rigorously enforce existing anti-discrimination laws in all 
institutions of higher education to increase the science and 
engineering talent developed in this country.

Congress, because of the insidious ways in which bias can permeate even 
an environment that aspires to transparency, like the academy, must 
direct its full attention to enforcing anti-discrimination laws, 
including regular oversight hearings to investigate the enforcement 
activities of the Department of Education, the EEOC, the Department of 
Labor, and the science granting agencies.

Challenges and Solutions

    In preparing this report we discovered many challenges, but also, 
promising solutions to the problems of achieving gender equity in 
academic science and engineering. The most significant challenge is how 
deeply ingrained gender and racial biases are in, and part of the 
fabric of, our society. People--both men and women--for the most part 
intend to be fair, but act on unexamined biases when evaluating others. 
Many excellent scientists and engineers are opting out of the academic 
career path because of the perceived hostile climate for women--in 
hiring, tenure, promotion, and compensation--particularly those who 
wish to combine family or community service with research and teaching. 
We are losing too many who could contribute to the Nation's science and 
engineering enterprise, and who could increase our chances of 
maintaining our position as a global leader in these critical areas.
    But the landscape also includes some promising solutions. Ongoing 
efforts to identify and examine biases have begun to change 
recruitment, hiring, and retention processes at universities. One 
example is a 2006 meeting, http://www.chem.harvard.edu/groups/friend/
GenderEquityWorkshop/, co-sponsored by NIH, DOE, and NSF, during which 
60 chairs of chemistry departments were brought together for a two-day 
session to identify strategies that chemistry departments, 
universities, and federal agencies could implement to encourage and 
enable broader participation of women in academic research careers. The 
session covered demographics of the training ``pipeline,'' research on 
biases that affect recruitment and hiring, and development action 
items. An NSF ADVANCE-funded program at the University of Wisconsin, 
Madison, provides on-site workshops for department chairs, http://
wiseli.engr.wisc.edu/, and search committee chairs. These three-session 
workshops provide chairs an opportunity to explore the climate in their 
department, identify key issues, develop action plans, and discuss the 
impact of changes they have made. These examples are models that can be 
adopted across the country.
    Another uncommonly effective model, developed when I was Chancellor 
of the University of Wisconsin, the Women in Science and Engineering 
Leadership Institute (WISELI), http://wiseli.engr.wisc.edu/, is a 
centralized, visible administrative structure with a mission to address 
a number of impediments to women's academic advancement.

        <bullet>  The center structure of WISELI allows the institute 
        to bring the issues of women scientists and engineers from 
        obscurity to visibility

        <bullet>  It provides an effective and legitimate means of 
        networking women faculty across departments, decreasing 
        isolation, advocating for and mentoring women faculty, and 
        linking women postdoctoral fellows in predominantly male 
        environments with a variety of women faculty

        <bullet>  WISELI's long-term goal is to have the gender of the 
        faculty, chairs, and deans reflect the gender of the student 
        body

        <bullet>  To accomplish these goals, WISELI will be a visible, 
        campus-wide entity, endorsed by top-level administrators, which 
        will use UW-Madison as a ``living laboratory'' to study the 
        problem and implement solutions.

A Case in Point: The University of Miami

    For me, as President of the University of Miami, the problem is 
very close to home. Leadership on this issue must begin at the top, but 
it can't be simply legislation from the top. It requires buy-in and 
accountability at every link in the chain of command. Within the past 
two years at the University of Miami, I have put in place an almost 
completely new senior leadership and decanal team, and we have made one 
of our very top priorities the task of addressing the issues of gender 
(and other) biases, and redressing inequities, in recruitment, hiring, 
promotion, retention, and compensation.
    Our report provides a Scorecard that allows universities to track 
and evaluate their progress on these issues, and the University of 
Miami's is included in my written statement. It is a humbling 
experience indeed to complete one of these scorecards, even in a place 
in which there is the commitment and leadership we have in place here, 
but our completed scorecard is helping us as we move forward on these 
issues. Our strategies and programs to address the issues include the 
following:

        <bullet>  Last year, our Faculty Senate's Committee on Women 
        and Minorities, produced a report on diversity and equity in 
        the tenured and tenure-track faculty, by job class and gender 
        in all the schools and divisions. We focused explicitly on the 
        areas of science, technology, engineering, math, and medicine.

        <bullet>  We hired an Associate Dean for Faculty Diversity and 
        Development for our Miller School of Medicine, who also will 
        work with the Provost and me on university-wide programs and 
        assessment.

        <bullet>  We developed a Bridging Program through which the 
        Provost's office provides funding between the period of an 
        opportunity/diversity hire, and the time that a tenure line 
        opens within a department.

        <bullet>  Our Post Doc Funding Program is designed to identify 
        promising new women and minority Ph.D. graduates who are 
        prospective faculty hires, but not as accomplished in their 
        research agenda as we would like. The participants are hired 
        with the expectation that following the postdoc year--during 
        which they will receive research and mentoring support and 
        augment their scholarly profiles--they will enter a tenure-
        track position.

        <bullet>  Salary equity issues are being addressed directly by 
        the Provost, who for two years has been working directly with 
        the deans to first systematically identify inequities, and then 
        to work with the Provost to address them.

        <bullet>  Our Workload Relief Program provides for a release 
        from teaching responsibilities for up to one semester following 
        a birth or adoption for faculty members who are the primary 
        caregiver for the child, and they also are eligible for a one-
        year extension of their tenure clocks.

        <bullet>  The Provost has instituted a workshop for deans and 
        associate deans to discuss in depth the university's 
        performance in the area of recruitment and retention of women 
        and minority faculty, and of the need to focus on and improve 
        in this area. This renewed focus has yielded tangible results.

Conclusion

    We can no longer afford to operate according to the old status quo. 
If the United States truly wants to maintain its lead in the global 
scientific and engineering marketplace, then policies must be geared to 
attracting and retaining the best and brightest--regardless of whether 
they are male or female.
    The fact that women are capable of contributing to the Nation's 
scientific and engineering enterprise, but are impeded from doing so 
because of gender and racial/ethnic bias and outmoded ``rules'' 
governing academic success is deeply troubling and embarrassing. It 
also must be a call to action. All of us--faculty, university leaders, 
professional and scientific societies, federal agencies and the Federal 
Government--must unite to ensure that all our nation's people are 
welcomed and encouraged to excel in science and engineering in our 
research universities. Our nation's future depends on it.

Working Data for University of Miami Scorecard

D1--Formal Mentoring Programs for:

        <bullet>  Undergraduates--no

        <bullet>  Graduate Students--no

        <bullet>  Postdoctoral Scholars--no

        <bullet>  Pre-tenure Faculty--no

        <bullet>  Tenured Faculty--no

D2--Provide management training or workshops with an integrated 
component that addresses gender, and ethnic and racial equity for:

        <bullet>  Undergraduates--no; informal through student groups

        <bullet>  Graduate Students--no

        <bullet>  Postdoctoral Scholars--no

        <bullet>  Pre-tenure Faculty--no

        <bullet>  Tenured Faculty--no

        <bullet>  Department Chairs--yes

        <bullet>  Search Committee Chairs--no

        <bullet>  At our most recent academic leadership workshop the 
        Provost spoke at length with supporting data on the 
        university's performance in the area of recruitment and 
        retention of women and minority faculty, and of the need to 
        focus on this area.

D3--Is there a university-wide grievance policy?--No, but we have 
separate policies that deal with faculty, students and staff.

D4--Does the grievance policy apply to:

        <bullet>  Undergraduates--yes, please see:

           http://www6.miami.edu/umbulletin/info/serv/ombuds.htm

        <bullet>  Graduate Students--yes, please see:

           http://www6.miami.edu/umbulletin/info/serv/ombuds.htm

        <bullet>  Postdoctoral Scholars--yes, please see:

           http://www6.miami.edu/UMH/CDA/UMH<INF>-</INF>Main/
           1,1770,13610-1;14550-3,00.html

        <bullet>  Pre-tenure Faculty--yes, please see Section B4.10:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  Tenured Faculty--yes, please see Section B4.10:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

D5--Is there an office or person designated to grievances?--Yes; Vice 
Provost for Faculty Affairs.

D6--To whom/what are sexual harassment cases brought? Vice Provost for 
Faculty Affairs.

D7--What percentage of sexual harassment cases were forwarded for 
action? 100 percent.

D8--Does the university have a central, written policy and budget to 
allow part-time appointments for faculty:

        <bullet>  Tenure-track--no

        <bullet>  Tenured--no

D9--Does the university have a university-wide written policy and 
budget to allow temporary relief from teaching or other modifications 
of duties with no reduction in pay for faculty:

        <bullet>  Family care--yes, please see Section C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  Personal disability--no written policy; handled 
        collegially

D10--Does the university have university-wide written policies 
providing full or partial replacement pay:

        <bullet>  For new biological mothers during leaves for 
        disability related to pregnancy and childbirth during the 
        academic year--yes, please see Section C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  For adoptive mothers--yes, please see Section C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  For biological fathers--yes, please see Section 
        C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  For adoptive fathers--yes, please see Section C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  For unmarried partners--yes, please see Section 
        C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

D11--Does the university have a formal pregnancy leave policy for:

        <bullet>  Undergraduates--no

        <bullet>  Graduate Students--no

        <bullet>  Postdoctoral Scholars--yes, please see:

           http://www6.miami.edu/UMH/CDA/UMH<INF>-</INF>Main/
           1,1770,13610-1;14652-3,00.html

        <bullet>  Pre-tenure Faculty--yes, please see Section C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

        <bullet>  Tenured Faculty--yes, please see Section C17.7:

           https://www6.miami.edu/faculty-senate/FACULTYMANUAL07-08/
           FacultyManualFall2007-08.doc

    Donna E. Shalala, President of the University of Miami and former 
Secretary of Health in the Clinton Administration, chaired a committee 
of the National Academies that wrote the 2007 report Beyond Bias and 
Barriers: Fulfilling the Potential of Women in Academic Science and 
Engineering. The report is available on-line at http://www.nap.edu/
catalog.php?record<INF>-</INF>id=11741

                     Biography for Donna E. Shalala
    Donna E. Shalala became Professor of Political Science and 
President of the University of Miami on June 1, 2001. President Shalala 
has more than 25 years of experience as an accomplished scholar, 
teacher, and administrator.
    Born in Cleveland, Ohio, President Shalala received her A.B. degree 
in history from Western College for Women and her Ph.D. degree from The 
Maxwell School of Citizenship and Public Affairs at Syracuse 
University. A leading scholar on the political economy of State and 
local governments, she has also held tenured professorships at Columbia 
University, the City University of New York (CUNY), and the University 
of Wisconsin-Madison. She served as President of Hunter College of CUNY 
from 1980 to 1987 and as Chancellor of the University of Wisconsin-
Madison from 1987 to 1993.
    In 1993 President Clinton appointed her U.S. Secretary of Health 
and Human Services (HHS) where she served for eight years, becoming the 
longest serving HHS Secretary in U.S. history. At the beginning of her 
tenure, HHS had a budget of nearly $600 billion, which included a wide 
variety of programs including Social Security, Medicare, Medicaid, 
Child Care and Head Start, Welfare, the Public Health Service, the 
National Institutes of Health (NIH), the Centers for Disease Control 
and Prevention (CDC), and the Food and Drug Administration (FDA). One 
of the country's first Peace Corp volunteers, she served in Iran from 
1962 to 1964.
    As HHS Secretary, she directed the welfare reform process, made 
health insurance available to an estimated 3.3 million children through 
the approval of all State Children's Health Insurance Programs (SCHIP), 
raised child immunization rates to the highest levels in history, led 
major reforms of the FDA's drug approval process and food safety 
system, revitalized the National Institutes of Health, and directed a 
major management and policy reform of Medicare. At the end of her 
tenure as HHS Secretary, The Washington Post described her as ``one of 
the most successful government managers of modern times.'' In 2007, 
President George W. Bush hand-picked Shalala to co-chair with Senator 
Bob Dole the Commission on Care for Returning Wounded Warriors, to 
evaluate how wounded service members transition from active duty to 
civilian society.
    As Chancellor of the University of Wisconsin-Madison, she led what 
was then the Nation's largest public research university. She 
successfully strengthened undergraduate education, the university's 
research facilities, and spearheaded the largest fund-raising drive in 
Wisconsin's history. In 1992, Business Week named her one of the top 
five managers in higher education.
    She served in the Carter Administration as Assistant Secretary for 
Public Development and Research at the U.S. Department of Housing and 
Urban Development. In 1980, she assumed the presidency of Hunter 
College of the City University of New York.
    She is a Director of Gannett Co., Inc., UnitedHealth Group, Inc., 
and the Lennar Corporation. She also serves as a Trustee of the Henry 
J. Kaiser Family Foundation.
    President Shalala has more than three dozen honorary degrees and a 
host of other honors, including the 1992 National Public Service Award, 
the 1994 Glamour magazine Woman of the Year Award, and in 2005 was 
named one of ``America's Best Leaders'' by U.S. News & World Report and 
the Center for Public Leadership at Harvard University's Kennedy School 
of Government. She has been elected to the Council on Foreign 
Relations; National Academy of Education; the National Academy of 
Public Administration; the American Academy of Arts and Sciences; the 
National Academy of Social Insurance; the American Academy of Political 
and Social Science; and the Institute of Medicine of the National 
Academy of Sciences.

    Chairman Baird. Thank you. Dr. Olsen.

  STATEMENT OF DR. KATHIE L. OLSEN, DEPUTY DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Olsen. Thank you, Chairman Baird, Ranking Member 
Ehlers, and Members of the Subcommittee. Thank you.
    We need the strength of our nation's full diversity in our 
science engineering and technological workforce, and as Dr. 
Shalala said, it is vital to our nation's continuing 
prosperity. There is no longer an issue of debate or lengthy 
discussion. Simply put, it is critical for all of us.
    I would like to begin with a little story on how I ended up 
at the National Science Foundation, an agency where 
inclusiveness is at the very core of our vision and our 
mission. In 1986, I was a traditional faculty member, and I was 
writing an invited chapter for a very important publication. 
That was in the days when most of us only had DOT matrix 
printers--and I don't know if you remember that. But the 
secretary had the one and only crisp, laser printer that could 
produce a polished manuscript. So my department chair walked in 
when she and I were working on my manuscript, and he asked me 
poignantly, can't you type in front of the whole department. 
Now, I want to know how many men have been asked that question. 
Well, I can type, and I laughed it off, but what I did is I 
went in and typed a letter and printed it out on my DOT matrix 
printer, to the National Science Foundation, where I had spent 
time as a visiting scientist. They had recently asked me to 
consider returning permanently, and I knew that my 
contributions were valued there. So I used, as I said, my DOT 
matrix printer to print a letter to send to NSF, and I 
subsequently moved to Washington.
    I want you to know that I have never forgotten that 
incident--obviously, I am telling it. I am proud of the work 
the National Science Foundation has done to improve the 
environment in science and engineering for the entire women of 
today and tomorrow and grateful for the opportunity that I have 
had to contribute.
    I am particularly proud that NSF is an example of the 
principles that we advocate. NSF has numerous senior women in 
scientific and administrative roles, serving on our advisory 
committees, our committee of visitors, as reviewers and as 
principal investigators on our major grants. We take the advice 
of our committee on equal opportunities in science and 
engineering, very seriously CEOSE--Dr. Bement and I just spent 
an hour with them today. We are constantly improving in order 
to stay in the forefront of inclusive management.
    All of our managers and supervisors are trained in and are 
held accountable for good diversity management, and our newly 
instituted ongoing merit-review training for program officers 
will include discussion of implicit bias, based on your report, 
both its potential impact on the review processes they 
shepherd, but also on their own decision-making.
    I am also very proud of ADVANCE, NSF's premier funding 
program, aspiring to improve the climate for women in science 
and engineering enterprise. From its inception in 2001, ADVANCE 
funding has gone to 58 institutions of higher education, all 
different types of sizes and institutions in 36 states, the 
District of Columbia and Puerto Rico. We know that what works 
in one institution or in one place may not work for all. 
Therefore, we have been careful to diversify these initial 
grants to ensure that, in total, the lessons learned will have 
broad applicability.
    The idea behind ADVANCE is simple: sweeping intuitional 
transformation is the best hope for creating truly women-
friendly environments in science and engineering. Like sleeping 
giants and like my former chair and my friend, entire campuses 
have been dozing on this issue. Funding targeted at individuals 
within institutions simply didn't go far enough. We learned 
that from our earlier programs like the research opportunities 
for women and career advancement awards. We realized that what 
needed was full institution-wide shakeup to bring about 
concrete changes. Already, ADVANCE results are measured in an 
increased number of female faculty hires, advancement towards 
salary parity and other tangible progress, as you can see from 
my testimony.
    The new ADVANCE partnership for adaptation implementation 
and dissemination, PAID, was initiated in response to our 
community's identification of the growing need for the broad 
distribution of ADVANCE knowledge, strategies and results. PAID 
insures that ADVANCE successes can be duplicated across the 
country.
    In fashioning welcoming environments for women in science 
and engineering, we are also fostering a better environment for 
other, under-represented groups and for men as well. 
Ultimately, our goal is to transform institution by 
institution, the entire culture of science and engineering in 
America and to be inclusive of all for the good of all.
    Mr. Chairman, again, thank you for inviting me here today. 
NSF look forward to working with you to ensure that women 
continue to become leading scientists and engineers, Nobel 
laureates, CEOs, presidents of major universities, cabinet 
secretaries, and even Members of Congress. Our nation's future 
depends upon it.
    And I just want to add, I can type, and now I am about 60 
words per minute. I think it was a little faster when I was 
younger. And I will be happy to answer all of your questions. 
Thank you.
    [The prepared statement of Dr. Olsen follows:]
                 Prepared Statement of Kathie L. Olsen
    Chairman Baird, Ranking Member Ehlers, and distinguished Members of 
the Subcommittee, thank you for the invitation to testify on the 
National Science Foundation's (NSF) role in advancing women's 
participation in academic science and engineering. The NSF considers 
this topic central for the continued vitality of the Nation's 
scientific enterprise.
    The focus on women in science and engineering constitutes a 
longstanding and important component of NSF's strategic investment 
portfolio. A high priority within that portfolio is broadening 
participation of groups under-represented in science and engineering, 
namely, women, minorities, and persons with disabilities. Thus, some of 
the many NSF programs aimed at broadening participation in S&E focus 
specifically on women. These programs address the Learning goal in the 
NSF FY 2006-2011 Strategic Plan, Investing in America's Future: to 
cultivate a world-class, broadly inclusive science and engineering 
workforce, and to expand the scientific literacy of all citizens.
    Increasing the number of women at all levels of the science and 
engineering academic workforce offers many benefits, including new and 
diversified perspectives to drive scientific research, as well as 
mentors and role models for undergraduate and graduate students that 
better represent the makeup of the student body. At the National 
Science Foundation, we are confident we can make an impact at the 
faculty workforce level because there is no shortage of scientific 
talent; women are earning doctorates in science and engineering in 
increasing numbers, but are currently less likely than their male peers 
to enter tenure track academic positions. For example, women have 
earned 23 percent of the doctoral degrees in the physical sciences 
since 1997, yet held only 14 percent of academic physical science 
faculty positions in 2003.

1.  Describe what NSF through ADVANCE IT has learned about the biggest 
challenges and most promising solutions to achieving gender equity in 
faculty recruitment, retention, and general climate in science and 
engineering fields.

    The most significant challenges to achieving gender equity in 
academic science and engineering include:

        <bullet>  The continuing importance of well-established 
        networks from which women have been excluded historically

        <bullet>  The impact of implicit bias

        <bullet>  The feeling of isolation when there are only a few 
        women in equivalent positions within academic Science, 
        Technology, Engineering, and Mathematics (STEM) settings

        <bullet>  Unclear hiring, tenure, and promotion policies

        <bullet>  The ``two-body problem,'' which arises from the 
        finding that women scientists and engineers are more likely 
        than their male colleagues to have partners who are also 
        scientists and engineers.

    Traditional networking routes used for faculty recruiting can 
hinder increasing the representation of women professors in STEM 
fields. Many faculty and academic leaders chairing search committees 
come from male-dominated educational and professional experiences; when 
they turn to their informal networks to recruit faculty talent, they 
tend to create disproportionately male applicant pools. Further, when 
the perception exists that qualified women are very rare, it is often 
assumed that a woman candidate will not accept an offer--and so an 
offer is not made.
    Implicit bias in recruitment and reappointment committees also 
creates a challenge to improving the representation of women in STEM 
faculty positions, where committee members are not aware of their 
misperception of the achievements and potential of women candidates and 
colleagues. Greater service obligations placed on women faculty, such 
as disproportionate participation on department committees and 
undergraduate advising loads, are quite common. This is particularly 
likely for a department eager to make its gender diversity visible. 
Participation in these activities detracts from time available for 
research activities, and colleagues frequently see performance of 
service obligations as an indicator of a weak commitment to 
scholarship.
    Isolation is also a barrier to women. Studies have shown that 
informal mentoring, which many departments rely on to assist junior 
faculty, is offered less often to women than to men. In addition, fewer 
opportunities are presented for the informal socializing that leads to 
important academic information sharing and the building of 
collaborations.
    Many academic institutions do not have clear personnel policies and 
practices. In these situations, information is often circulated through 
informal networks, and thus is less accessible to faculty who are not a 
part of the informal communication loop. This lack of clear, inclusive 
communication not only leads to misinformation about policies and 
procedures, but also to confusion and a greater feeling of isolation. 
Unclear personnel policies can ultimately lead to mistaken career 
decisions, low morale, and inequitable treatment by decision-makers who 
are themselves unclear or misinformed about the policies.
    There are significant barriers to the recruitment rates of women 
faculty in STEM fields that can continue to be barriers to retention, 
once they have been hired, which makes addressing these barriers doubly 
important. For instance, there is a greater likelihood that a woman 
will have a partner in an academic STEM field, and women continue to 
have greater responsibility for dependent care than do men. These 
realities make finding spousal employment and quality dependent care 
arrangements more crucial to the recruitment of new women faculty, as 
well as to the retention of women whose family situations change. When 
competing for promising candidates or for the retention of faculty 
members, industrial employment opportunities may offer significantly 
improved possibilities than academia for women's spousal placement and/
or dependent care arrangements.
    Potential solutions to these and other challenges have been 
developed by awardees of NSF's ADVANCE-Institutional Transformation 
Program, which began in 2001. Institutional transformation occurs 
through a top down, bottom up approach: when a committed senior 
leadership establishes policies that enhance the recruitment and 
retention of women and an institutional commitment to diversity, in 
cooperation with the individual members of the institution who initiate 
and incorporate change in their daily practice. The ADVANCE program 
will begin a multi-year program-level evaluation in 2008 in order to 
document the efficacy of the project level solutions that have been 
developed and implemented at the ADVANCE grantee sites. We know 
anecdotally that peer institutions, that have not received funding from 
ADVANCE, have adopted many of the solutions developed by ADVANCE 
Institutional Transformation grantees and we expect the program level 
evaluation will demonstrate this to be true.
    ADVANCE awardees have become national leaders in the development of 
training experiences for department chairs, deans, recruitment 
committees, and tenure and promotion committees. Evidence indicates 
that awareness of research findings on implicit bias (one common focus 
of such trainings) has a significant impact on an individual's future 
decision-making. For example, those that evaluate faculty and write 
letters of reference for students become more cognizant of the impact 
of using gendered language (excitable vs. passionate) to describe an 
individual and their academic potential. Other initiatives focus on the 
development of mentoring programs, with training for people on both 
sides of the mentoring relationship.
    Institutional changes have occurred with policies that ensure more 
thorough development of candidate pools, review of national information 
on the availability of candidates from diverse groups, and procedures 
that build in the use of effective approaches to successful 
recruitment. Many examples can be found by browsing individual awardee 
websites (http://www.nsf.gov/crssprgm/advance/itwebsites.jsp). In the 
case of ADVANCE at Hunter College in New York, women accounted for only 
27 percent of new hires in the natural sciences before the Gender 
Equity Project, but from 2003 to 2006, after significant institutional 
change, women accounted for 61 percent of new hires.
    Policy changes aimed specifically at work-family challenges 
include: allowing or automatically initiating a tenure-clock stop for 
faculty with new children or other emergent family obligations such as 
elder care. For example, Virginia Tech, a recipient of an ADVANCE 
grant, recently initiated part-time tenure track positions to better 
suit the long-term work-family arrangements of some faculty. Columbia 
University, another ADVANCE institution, is offering small grants to 
faculty for the additional child care costs that arise when traveling 
to professional meetings.

2.  What is NSF doing to broadly disseminate and encourage best 
practices identified through ADVANCE?

    In order to disseminate information, we employ two main strategies: 
the strategic design of the ADVANCE program itself, and the NSF's 
leadership role in the scientific community.
    The ADVANCE program has evolved from its start in 2001. Our 
approach is to build upon what we have learned about institutional 
transformation and increased participation of women in academic STEM 
careers. Proposals for new institutional transformation grants are 
required to incorporate lessons learned from current ADVANCE grantees 
as well as relevant social science research. This ensures that new 
grantees do not use time and resources reinventing the basics of 
institutional transformation. Instead, they build on what has been 
learned and use that to further innovate, contributing to our increased 
understanding of institutional change.
    It is important to recognize that best practices and effective 
policies will differ depending on the type of institution. One of the 
great strengths of ADVANCE is that we have institutional transformation 
grants in a wide diversity of institutions, from public to private, 
small to large, primarily undergraduate to research intensive, and 
different levels of selectivity. To further our goal of greater 
dissemination of successful strategies from this wide variety of 
institutions, we established the Partnerships for Adaptation, 
Implementation and Dissemination (PAID) component of ADVANCE in 2006. 
Some PAID awardees are disseminating best practices through regional or 
national training. For example, the University of Wisconsin ADVANCE-
PAID program provides training for teams from colleges and universities 
on ways to increase the hiring of women into STEM faculty positions. 
The University of Washington's ADVANCE-PAID provides leadership 
training workshops for STEM department chairs to improve their 
departmental climate. The workshops integrate issues of diversity 
throughout the meeting instead of holding a separate session on gender 
and minority issues. This ensures that diversity becomes an integral 
part of the everyday management and decision-making process.
    ADVANCE Institutional Transformation awardees have developed a rich 
variety of materials that are available through their websites and the 
ADVANCE-IT web portal. For example, the ``ADEPT'' website at Georgia 
Tech is designed to train individual promotion and tenure committee 
members by utilizing an interactive training experience about the 
implicit biases that often interfere with gender equitable decision-
making.
    In addition, both PAID and IT awardees disseminate best practices 
at disciplinary conferences and at conferences for college and 
university leaders. Some PAID awards support groups of women in a 
particular STEM discipline nationally or within a region. PAID awardees 
disseminate best practices (such as effective mentoring) through 
meetings held concurrently with larger disciplinary conferences, and 
through the development of web-based alliances.

    For the research communities that look to NSF and other federal 
agencies to support their work: along with the National Institutes of 
Health and the Department of Energy, we have co-sponsored a national 
workshop focused on gender equity for the department chairs of fifty 
major chemistry departments and another for the department chairs of 
fifty major physics departments.
    At the request of the NSF Division of Chemistry, the University of 
Michigan ADVANCE IT grantee developed a brief training about implicit 
bias. The Chemistry Division at NSF has received training on this topic 
and it is now implemented at all Chemistry Division ``panels'' (groups 
of experts who meet together to review and make funding recommendations 
for proposals in their field). Through this effort in the Chemistry 
Division, hundreds of peer reviewers will be trained each year and will 
return to their home institutions with a new understanding of the ways 
that implicit bias diminishes equity in decision-making. Dissemination 
to other units in NSF is underway, including mandatory program officer 
training on implicit bias during the merit review process.

3.  In addition to activities already described, what else can NSF and 
other agencies do to promote a more favorable environment for women in 
academic science and engineering fields?

    Commitment to this goal must be reflected broadly across the 
organization and at every level within the organization. At NSF, the 
commitment to workplace diversity and enhancing opportunities for women 
and other under-represented minorities in STEM fields is prominently 
reflected in both our Strategic Plan and in our practice. In the senior 
leadership, besides myself, there are two female Assistant Directors, 
and the agency Inspector General is also a woman. We make it a priority 
to ensure that women are well represented at all levels throughout the 
scientific and support staff, on our advisory committees, our 
committees of visitors, and among our reviewers. To further focus 
attention on this important subject, our Committee on Equal 
Opportunities in Science and Engineering (CEOSE) advises us on how well 
we are doing and where we could do better.
    The Science and Technology Equal Opportunities Act of 1980 
authorizes the NSF to make awards to encourage the education, 
employment, and training of women in science and technology. This 
testimony discusses several such awards, including, of course, the 
entire ADVANCE program. Additionally, I want to emphasize that in all 
our grants policies and practices, NSF is committed to the fair 
inclusion of women, and indeed, has been successful in maintaining a 
high standard. The 2005 Rand study ``Gender Differences in Major 
External Federal Grant Programs'' found that, at NSF, there were no 
gender differences in the amount of grant funding requested or awarded. 
Additionally, our recent internal study on the Impact of Proposal and 
Award Management Mechanisms found that women and minorities have also 
not suffered disproportionately in the recent overall reductions in 
proposal funding rate. Within the Foundation, both the Biology and the 
Social and Behavioral Sciences Directorates have implemented practices 
to ensure women's participation in numbers appropriate to their 
representation in the field in all conferences, meetings, workshops, 
and international congresses for which those directorates provides 
funds.
    Part of NSF's role as a leader in the scientific community is the 
communication of the importance of broadening the participation of 
women and other under-represented groups such as minorities and persons 
with disabilities in the science and engineering enterprise. 
Internally, this is communicated on an on-going basis through training 
opportunities and seminars. NSF has recently instituted a new 
requirement for on-going training in merit review for program officers. 
One goal of this training will be to ensure that the peer review 
process is free from the influence of implicit bias and to ensure 
agency staff are aware of the potential impact of implicit bias in 
their own decision-making. An example of how NSF leads the external 
community can be found in the most recent solicitation for chemistry-
related instrumentation acquisitions, which requires a departmental 
plan for broadening participation as an addendum to each proposal. This 
demonstrates to the scientific community that NSF takes diversity 
seriously.
    Finally, because of the global nature of the scientific enterprise 
and the growing importance of international scientific collaboration we 
see an international leadership role for NSF based on what has come 
from the ADVANCE IT sites. Dr. Bement and I, together with the 
Assistant Directors and leaders from the Directorate for Education and 
Human Resources have been actively participating in international 
meetings, bringing the lessons learned at NSF and from ADVANCE grantees 
to a global audience. We believe that NSF's international role in 
women's increased participation in academic science and engineering is 
in its early stages; we envision it expanding significantly through 
continued institutional commitment at NSF and through the ADVANCE 
Program.

Conclusion

    Mr. Chairman, thank you again for the opportunity to testify before 
you today on this extremely important topic.
    As you are well aware, NSF research and education efforts 
contribute to the Nation's innovation economy and help keep America at 
the forefront of science and engineering. At the same time, NSF 
supported researchers produce leading edge discoveries that can serve 
society and spark the public's curiosity and interest. Discoveries 
coming from dozens of NSF programs and initiatives are enriching the 
entire science and engineering enterprise, and making education fun, 
exciting and achievement-oriented.
    NSF is committed to cultivating a science and engineering 
enterprise that not only unlocks the mysteries of the universe, but 
that also addresses the challenges of America and the world. To echo 
the findings of the NAS Beyond Bias and Barriers report, our nation 
cannot afford to neglect the lack of women in STEM careers. In order to 
preserve our competitive edge, we are firmly committed to aggressively 
pursuing and offering opportunities for everyone within the STEM 
enterprise--women and men.
    Mr. Chairman and Members of the Committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest. I look forward to 
continue working with you, and would be happy to respond to any 
questions that you have.

                     Biography for Kathie L. Olsen
    Dr. Kathie L. Olsen became Deputy Director of the National Science 
Foundation (NSF) in August 2005.
    She joined NSF from the Office of Science and Technology Policy 
(OSTP) in the Executive Office of the President, where she was the 
Associate Director and Deputy Director for Science and responsible for 
overseeing science and education policy including physical sciences, 
life sciences, environmental science, and behavioral and social 
sciences.
    Prior to the OSTP post, she served as the Chief Scientist at the 
National Aeronautics and Space Administration (NASA) (May 1999-April 
2002) and the Acting Associate Administrator for the new Enterprise in 
Biological and Physical Research (July 2000-March 2002). As NASA Chief 
Scientist, she served not only as the Administrator's senior scientific 
advisor and principal interface with the national and international 
scientific community but also was the principal advisor to the 
Administrator on budget content of the scientific programs.
    Before joining NASA in May 1999, Dr. Olsen was the Senior Staff 
Associate for the Science and Technology Centers in the NSF Office of 
Integrative Activities. From February 1996 until November 1997, she was 
a Brookings Institute Legislative Fellow and then an NSF detail in the 
Office of Senator Conrad Burns of Montana. Preceding her work on 
Capitol Hill, she served for two years as Acting Deputy Director for 
the Division of Integrative Biology and Neuroscience at the NSF, where 
she has worked and held numerous other science-related positions.
    Dr. Olsen received her B.S. with honors from Chatham College, 
Pittsburgh, Pa., majoring in both biology and psychology and was 
elected to Phi Beta Kappa. She earned her Ph.D. in Neuroscience at the 
University of California, Irvine. She was a Postdoctoral Fellow in the 
Department of Neuroscience at Children's Hospital of Harvard Medical 
School. Subsequently at SUNY-Stony Brook she was both a Research 
Scientist at Long Island Research Institute and Assistant Professor in 
the Department of Psychiatry and Behavioral Science at the Medical 
School. Her research on neural and genetic mechanisms underlying 
development and expression of behavior was supported by the National 
Institutes of Health.
    Her awards include the NSF Director's Superior Accomplishment 
Award; the International Behavioral Neuroscience Society Award; the 
Society for Behavioral Neuroendocrinology Award for outstanding 
contributions in research and education; the Barry M. Goldwater 
Educator Award from the American Institute of Aeronautics and 
Astronautics-National Capital Section; the Barnard Medal of 
Distinction, which is the college's most significant recognition of 
individuals for demonstrated excellence in conduct of their lives and 
careers; and the NASA's Outstanding Leadership Medal. She has also 
received honorary degrees from Chatham College, Clarkson University, 
and University of South Carolina.

    Chairman Baird. I think 60 words a minute is faster than my 
old DOT matrix printer used to print.
    Dr. Hrabowski.

    STATEMENT OF DR. FREEMAN A. HRABOWSKI, III, PRESIDENT, 
            UNIVERSITY OF MARYLAND, BALTIMORE COUNTY

    Dr. Hrabowski. I should start by saying, as I look at the 
quote ``where there is no vision, the people perish,'' my own 
vision is to see an African American one day at the Nobel 
laureate level in science, an African American woman.
    The most important point I can make today, as I am PI, is 
that the under-representation is not a women's issue. It is an 
American issue. Just as we have been able to make substantial 
progress on our campus, the fact is that it is not a minority 
issue that we are talking about.
    As I talk, I want you to think about this parallelism 
between what happens with women and what happens with 
minorities, and what we have learned is that the success we 
have had in producing minorities in science has been a great 
foundation for producing----
    Chairman Baird. Your microphone.
    Dr. Hrabowski. Sorry.
    Chairman Baird. You speak so eloquently and loudly, we 
didn't even notice.
    Dr. Hrabowski. Big mouth. I come from Birmingham. We do 
that. The fact is that, as I think about it, the truth of the 
matter is that our successes come because we look at 
institutional change, first, from the perspective of the 
performance of African Americans on our campus in science, and 
we are now leading the country in producing Blacks who go on to 
actually earn Ph.D.s.\1\
---------------------------------------------------------------------------
    \1\ Appended for the record by Dr. Freeman Hrabowski, III. ``UMBC 
is recognized as the Nation's leading predominantly white university 
for producing African American undergraduates who go on to earn Ph.D.s 
in science and engineering.''
---------------------------------------------------------------------------
    The success at the advanced level is especially 
significant. Let me give you one statistic: we have had a 48-
percent increase in the number of women faculty in tenure-track 
positions since the beginning of the ADVANCE grant. Now, in 
comparison, we have had only a four-percent increase in the 
male faculty size. Now, in terms of the base, we have gone from 
29 to 43 women, and for men, from 137 to 142. We know for a 
fact that that increase has everything to do with practices and 
policies that have been changed as a result of the NSF ADVANCE 
grant.
    Most important, we have been working to change the culture 
of the institution. Let me just give you several of the most 
important points of culture change for us. Having the ability 
to conduct ongoing discussions with people, with chairs, with 
senior faculty with deans, and with others has been very 
important. Most critically, having the change to listen to the 
voices of those women--if you think about what Donna Shalala 
said about perceptions and biases, well, it is important to 
hear the voices of both men and women. To some people's 
surprise, they were very different in the way they thought 
about the climate in their environment.
    Interestingly enough, usually junior men though more 
similarly to women. Senior men tended to say things were okay, 
and so the challenge was to--and the big challenge--and we can 
talk about this later--is to help the climate, to foster a 
climate in which people can say what they really think without 
being criticized or censured, to not have people thinking that 
because a woman talks about family issues that she is not a 
serious scientist, and to think about ways of developing 
policies that can help both men and women because we don't want 
backlash, which is the same issue you face with minorities, 
because what have learned is things that help minority students 
in science can help students, in general in science. Many of 
the practices that can help junior women can help junior men. 
So clarity of expectation, looking at the pathways that are 
expected for those people, ongoing discussions of faculty 
development plan for every faculty member, women and men, 
something we have done for all, family leave policy is much 
more flexible than what the State had talked about. Sometimes 
it may be a faculty member who has problems with a sick parent. 
Other cases, it may be about a child, so you never know. So the 
idea is much more flexibility there, but robust and honest 
discussions about the issues without people becoming defensive. 
It is amazing how defensive people can become if you can't 
build that trust.
    And the most important point from my perspective is 
thinking about how to the get the faculty buy-in. The power 
rests in the hands of white males, and I don't say that to be 
negative, to be disparaging. It is a fact. The point is how we 
pull them into that, and what has made the difference on our 
campus in terms of producing minority scientist, in terms of 
increasing the number of women going on and moving up the 
ladder has been just that, getting the guys on board, having 
them understand that mentoring is what the old boy network is 
all about. We just want everybody to have that kind of 
networking possibility.
    The most important thing that people can do is keep 
building on these practices to give people incentives to ensure 
that many more institutions look at themselves in the mirror. 
Thank you.
    [The prepared statement of Dr. Hrabowski follows:]
            Prepared Statement of Freeman A. Hrabowski, III

UMBC as a National Model: The University as Mentor

    My campus colleagues and I see the issue of advancing women and 
minorities in science and engineering as an issue about which all 
Americans should be concerned. Consequently, when we were considering 
the opportunity to apply for a National Science Foundation (NSF) 
ADVANCE grant, we concluded that I should serve as the Principal 
Investigator (PI) to emphasize the importance of this initiative to the 
entire campus and also the importance of men becoming more 
knowledgeable about the challenges women scientists and engineers face 
in the academy.
    UMBC (the University of Maryland, Baltimore County) is recognized 
as a national leader in supporting and advancing women and under-
represented minority (URM) students in science, technology, 
engineering, and mathematics (STEM). We are a public research 
university, emphasizing graduate programs in the sciences, engineering, 
and public policy, and building on a strong undergraduate liberal arts 
and sciences core. We enroll more than 12,000 students (9,500 
undergraduate and 2,500 graduate), employ approximately 550 full-time 
faculty, and receive $85 million in external support annually for 
research-and-training contracts and grants. We are distinctive because 
of our demonstrated record of achieving diversity and excellence, 
particularly in science and engineering. It was especially gratifying 
when a recent New York Times editorial recognized UMBC for ``rocking 
the house when it comes to the increasingly critical mission of turning 
American college students into scientists.'' \1\
---------------------------------------------------------------------------
    \1\ Stapes, Brent, ``Why American College Student Hate Science,'' 
The New York Times, May 25, 2006.
---------------------------------------------------------------------------
    Producing well-prepared scientists and engineers for our 
increasingly diverse workforce is perhaps our most important and 
lasting contribution to the Nation's economic development and national 
security. Thousands of Maryland's physicians, scientists, engineers, 
information technology (IT) workers, policy-makers, and other STEM 
professionals are among UMBC alumni. The National Security Agency 
(NSA), for example, employs hundreds of UMBC math and computer science 
graduates. We rank third nationally (based on NSF data\2\ ) in the 
number of computer science and IT degrees awarded and have been 
designated a Center of Academic Excellence in Information Assurance by 
the NSA. The campus has twice received the U.S. Presidential Award for 
Excellence in Science, Mathematics and Engineering Mentoring.
---------------------------------------------------------------------------
    \2\ National Science Foundation, WebCASPAR Integrated Science and 
Engineering Resources Data System.
---------------------------------------------------------------------------
    UMBC has become a national model for diversity at a time when both 
the Nation is focused intensely on securing and strengthening its 
position in the global economy, and America's demographic profile is 
shifting dramatically. Our student body is among the most diverse 
nationally (40 percent minority, including 21 percent Asian, 15 percent 
African American, and four percent Hispanic and Native American). 
Particularly noteworthy are data from the American Society of 
Biochemistry and Molecular Biology (ASBMB) showing that UMBC ranked 
first nationally in total number of undergraduate biochemistry degrees 
awarded to African Americans in 2004-2005 (18 degrees). (The ASBMB also 
ranked UMBC seventh nationally in overall biochemistry degree 
production, with 63 degrees, and fourth nationally in the total number 
of biochemistry degrees awarded to Asian Americans, with 23 degrees.) 
Overall, we are recognized as the Nation's leading predominantly white 
university for producing African American undergraduates who go on to 
earn Ph.D.s in science and engineering.
    With the support of our NSF ADVANCE grant, we have used our success 
in producing minority scientists and engineers, particularly those 
involving women of color, to develop mentoring initiatives designed to 
increase the participation of women faculty in STEM fields and to 
advance them through the faculty ranks and into leadership positions. 
This comprehensive ``university as mentor'' \3\ approach is designed to 
embed focused, continuous support of women scientists at all levels--
undergraduate and graduate students and faculty throughout the ranks--
into the fabric and foundation of the university's culture.
---------------------------------------------------------------------------
    \3\ Bass, S., Rutledge, J.C., Douglass, E.R., Carter, W.Y., ``The 
University as Mentor: Lessons Learned from UMBC Inclusiveness 
Initiatives,'' Council of Graduate Schools, 2007.
---------------------------------------------------------------------------

Framing Success for Women Faculty in STEM

    The small numbers of women faculty in STEM is a long-standing 
national problem. A 2005 study shows that women faculty in the top 50 
research universities are under-represented at all ranks, especially as 
full professors. The study also reveals that under-represented minority 
women ``are almost non-existent in science and engineering departments 
at research universities'' and are less likely than Caucasian women, or 
men of any race, to be awarded tenure or reach full professor 
status.\4\ The UMBC ADVANCE Program uses a comprehensive approach based 
on lessons learned in producing minority scientists to meet these 
challenges. Our framework includes (1) developing, revising, and 
institutionalizing policies and practices, and allocating resources, in 
ways that support the recruitment, hiring, and advancement of women--
including particularly minority women--for the faculty at all ranks; 
(2) engaging the campus broadly in ongoing discussions, informal and 
formal, that address issues of racial and gender diversity in STEM 
fields; and (3) establishing a system of targeted mentoring programs 
designed to create a clear and understandable pathway for STEM women to 
achieve tenure and promotion, and to transition to academic leadership 
positions at the university.
---------------------------------------------------------------------------
    \4\ Nelson, D.J., Rogers, D.C., ``A National Analysis of Diversity 
in Science and Engineering Faculties at Research Universities,'' 
National Science Foundation, January, 2005.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Since the inception of the ADVANCE Program at UMBC, the number of 
female tenure-track faculty has increased 48 percent from fall 2003 
(N=29) to fall 2007 (N=43) compared to a four percent increase in male 
tenure-track faculty (fall 2003 N=137, fall 2007 N=142). Additionally, 
with the support offered through ADVANCE, the numbers of STEM women at 
the assistant professor and associate professor ranks have increased 
substantially--assistant professors by 58 percent (fall 2003 N=12, fall 
2006 N=19); associate professors by 33 percent (fall 2003 N=12, fall 
2006 N=16); full professors by 40 percent (fall 2003 N=5, fall 2007 
N=7). These outcomes reflect the university's determination to make 
progress in this area coupled with constituency education activities 
and changes in policies and practices that the campus has implemented 
over the course of the ADVANCE Program at UMBC.

Supporting Minority Achievement in STEM: Applying Lessons Learned to 
                    the Structural Components of ADVANCE at UMBC

    It is difficult to understand and appreciate fully the challenges 
that women and minorities face in the sciences and engineering. Until 
quite recently, American higher education was relatively silent about 
these challenges--not simply because there was a lack of understanding 
about the issues, but also because of the discomfort many experienced 
when discussing issues having to do with gender and race. Today, 
however, there is growing recognition among leaders in the science 
community--at NSF and other agencies, for example--of the need to 
understand these challenges and address them though such initiatives as 
ADVANCE. Much of the work of our ADVANCE grant is based on our success 
over the past two decades in producing minority scientists and 
engineers though our Meyerhoff Scholars Program. What we have learned 
about institutional transformation--including culture change, the need 
for mentoring, and the importance of creating a strong sense of 
community--has made it possible for us to have the conversations 
necessary to address these challenges. These conversations have engaged 
faculty, students, and campus leaders, and have been instrumental in 
building trust, creating community, and focusing on the facts about the 
serious under-representation of women in STEM.

Preparing and Educating the Campus at All Levels

    One successful strategy for developing a culture of inclusion for 
women faculty has been a campus-wide Distinguished Speaker Series, 
spotlighting the contributions of top women research scientists and 
focusing on issues that women faculty in STEM face in the academy. 
Modeling success, especially the achievements of top minority women 
scientists, provides a compelling demonstration of diversity and 
excellence for the entire campus. The distinguished speakers also give 
a special seminar on their research at the departmental level to 
highlight targeted impact on the field.
    We have worked to engage all levels of campus administration and 
each STEM department in developing and implementing ADVANCE 
initiatives. Chairs and Deans Meetings are held at least once a 
semester to focus on progress and challenges. These meetings provide a 
regular forum for education and debate about best practices and 
highlight departmental success in creating supportive work climates for 
women. Outside experts regularly present current research to the Chairs 
and Deans on gender issues in science and engineering, with special 
attention to the particular experiences of minority women faculty. 
Chairs also raise issues based on their own efforts to affect 
departmental climate change and advance women and minority faculty in 
their departments. The STEM departments are further involved with 
ADVANCE through Faculty Liaisons, an initiative that includes nine and 
female faculty members, one from each STEM department, who serve as 
advocates for the ADVANCE program within their departments. In 
addition, individual meetings among each Chair and the ADVANCE Director 
and Lead Co-PI focus on providing targeted information for the 
department and identifying ways the program could most effectively 
support their faculty. Finally, through its ADVANCE Excellence Awards, 
the program regularly recognizes the contributions of individuals 
(including administrators and Chairs) to the success of women in STEM.

Recruiting and Supporting Minority Women in STEM

    UMBC is committed to creating an environment of support and success 
that is attractive to the Nation's top prospective women and minority 
faculty in STEM. Accordingly, the Provost requires all departments 
planning to conduct a faculty search to submit a written Faculty 
Diversity Recruitment Plan for attracting a broad and diverse pool of 
applicants. This requirement is coupled with annual training on 
diversity recruitment presented by the Provost, Lead Co-PI, Director of 
Human Relations, and Senior Associate Dean of the Graduate School. 
Additional guidance is provided to departments by their respective 
Dean. Special attention is given to strategies and techniques for 
attracting applications from women and minority candidates and 
demonstrating a culture of inclusion to all candidates who visit 
campus. All female candidates for STEM faculty positions meet with 
faculty from WISE (our chapter of Women In Science and Engineering) and 
with representatives of the ADVANCE Program to make them aware of the 
resources and support available at UMBC. All male and female candidates 
meet with the Vice Provost for Faculty Affairs, who discusses support 
for balancing work and family issues, including information about 
UMBC's Family Support Policy and flexible tenure timelines for family 
and medical leave. In addition, the campus leadership (including the 
President, in his role as ADVANCE PI) is available to candidates to 
discuss these issues. The ADVANCE Research Assistantships for Chairs 
help STEM departments in successfully recruiting new women STEM faculty 
by offering one-year research assistantships which are added to the 
recruitment packages for these candidates.

Mentoring Minority Women for Success in STEM

    Demonstrating a clear and successful path to promotion and tenure 
is central to the work of our ADVANCE Program. The Faculty Horizons 
Program was created with support from ADVANCE to help participants 
become successful faculty members in STEM, with particular attention 
focused on attracting women from under-represented groups. This 
initiative builds on lessons learned through the undergraduate and 
graduate Meyerhoff bridge program experience, and our Graduate Horizons 
Program.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This intensive two-and-a-half-day workshop focuses on mentoring. 
The program targets senior-level graduate students and post-doctoral 
fellows, particularly women interested in becoming tenured STEM 
faculty. The workshop has been held annually since 2003 and has 
attracted 252 participants, including 237 women, 118 of whom have been 
under-represented minority. Our Faculty Horizons Program receives more 
than 250 applications for each of its annual workshops and has been 
duplicated at Virginia Tech and Rice University.
    The Eminent Scholar Program facilitates mentoring relationships 
between all new female STEM faculty and prominent researchers in their 
fields. This relationship is tailored to meet the specific needs of the 
junior scholar based on how effectively she has been mentored up to 
that point. ADVANCE also works closely with the WISE group on campus, 
an informal university network of STEM women, including a number of 
women of color, which meets monthly to provide a community of exchange 
and support. Before the ADVANCE initiative, the WISE group initiated an 
informal exchange of mentoring information through its monthly 
meetings. ADVANCE has expanded to develop this informal mentoring 
activity into a formal Faculty ADVANCEment Workshop Series, providing 
monthly workshops for all STEM faculty members on topics related to the 
tenure process, grant writing, resource negotiations, departmental 
politics, press relations, work/family issues, effective communication, 
and lab management.
    Through ADVANCE, we also have learned a great deal about some of 
the special challenges women in STEM fields face, particularly minority 
women, because of the numerous campus and community demands that are 
made on their time. Maintaining a productive research agenda is one 
such challenge, and to avoid attrition of minority women from doctoral 
programs and academic positions, institutions need to be supportive of 
these promising scholars and help to protect their research agendas as 
they move toward either completing their doctorates or achieving 
promotion and tenure. In this connection, the ADVANCE Research 
Assistantship Program for Current Faculty provides competitively 
awarded funding for a research assistant (RA) to female and male 
faculty who actively support the advancement of women and minorities in 
STEM fields. These RA awards are intended to support associate 
professors who are close to promotion, compensate for high service 
loads, and serve as bridge money for faculty between grants. Further 
support is available through the ADVANCE Faculty Sponsorship Committee, 
consisting of senior men and women faculty, which identifies and 
advises STEM women as they approach important milestones in their 
academic careers. The Committee offers guidance to STEM women about 
dossier preparation, balancing research and service obligations, and 
developing effective teaching portfolios as they anticipate third-year 
review or tenure with promotion. Together, these activities create a 
web of support that helps to guide women on a clearly defined path to 
success.

``Not Going It Alone''

    ``My soul was hungry for support.'' These are the words that Dr. 
Kristi Pullen, a brilliant young African American women and former 
Meyerhoff Scholar, wrote to me two years ago as she contemplated her 
future after earning her Ph.D. in biochemistry at one of the Nation's 
leading research universities. She had performed superbly in her 
doctoral program, solving protein structures using x-ray 
crystallography. But Dr. Pullen seriously considered leaving science 
for policy work in response to the profound sense of isolation she had 
experienced during her graduate studies. At this critical point in her 
career, reflecting on what ``going it alone'' had meant to her, Dr. 
Pullen concluded, ``I had all but completely given up on the idea of 
going into bench science [and] didn't particularly want to engage in it 
any longer. I have found this road to be a particularly lonely one, and 
I couldn't see myself walking it anymore.'' Fortunately, Kristi has 
remained in science, in part because of the support and encouragement 
she received from my colleagues.
    Moving forward, though, it's important to ask ourselves how can we 
create a culture of inclusion and a community of support to encourage 
talented minority women like Kristi Pullen to thrive as scientists and 
engineers in our universities? A university's institutional culture 
reflects its values, and inclusive academic cultures promote the 
advancement of women in STEM fields by identifying and addressing 
institutional barriers to success wherever they exist, and by 
cultivating a community of support. A culture of inclusion provides 
visible leadership and attends to climate and attitudes in all sectors 
of the campus--engaging faculty, administrators, staff, and students. A 
community of support listens carefully to the voices of women 
scientists, including women of color, and maintains a climate of 
openness that encourages the expression of wide-ranging views without 
concern of censure. Inclusion, in this sense, captures more than just a 
sense of possibility. Inclusion encourages an environment of high 
expectation and support, provides clear pathways to advancement, 
establishes best practices in mentoring, develops viable networks and 
communities of shared interests, prepares women to contribute to 
society as top researchers, and, in so doing, strengthens the 
experience for all faculty.

                Biography for Freeman A. Hrabowski, III
    Freeman A. Hrabowski, III, has served as President of UMBC (The 
University of Maryland, Baltimore County) since May, 1992. His research 
and publications focus on science and math education, with special 
emphasis on minority participation and performance.
    He serves as a consultant to the National Science Foundation, the 
National Institutes of Health, and universities and school systems 
nationally. He also sits on several corporate and civic boards. 
Examples include the Carnegie Foundation for the Advancement of 
Teaching, Constellation Energy Group, the France-Merrick Foundation, 
Marguerite Casey Foundation (Chair), McCormick & Company, Inc., 
Mercantile Safe Deposit & Trust Company, and the Urban Institute.
    Examples of recent awards or honors include election to the 
American Academy of Arts & Sciences and the American Philosophical 
Society; receiving the prestigious McGraw Prize in Education, the U.S. 
Presidential Award for Excellence in Science, Mathematics, and 
Engineering Mentoring, and the Columbia University Teachers College 
Medal for Distinguished Service; being named a Fellow of the American 
Association for the Advancement of Science and Marylander of the Year 
by the editors of the Baltimore Sun; and being listed among Fast 
Company magazine's first ``Fast 50 Champions of Innovation'' in 
business and technology. He also holds a number of honorary degrees, 
including most recently from Princeton University, Duke University, the 
University of Illinois, the University of Alabama-Birmingham, Gallaudet 
University, Goucher College, the Medical University of South Carolina, 
and Binghamton University.
    He has co-authored two books, Beating the Odds and Overcoming the 
Odds (Oxford University Press), focusing on parenting and high-
achieving African American males and females in science. Both books are 
used by universities, school systems, and community groups around the 
country.
    A child-leader in the Civil Rights Movement, Dr. Hrabowski was 
prominently featured in Spike Lee's 1997 documentary, Four Little 
Girls, on the racially motivated bombing in 1963 of Birmingham's 
Sixteenth Street Baptist Church.
    Born in 1950 in Birmingham, Alabama, Dr. Hrabowski graduated at 19 
from Hampton Institute with highest honors in mathematics. At the 
University of Illinois at Urbana-Champaign, he received his M.A. 
(mathematics) and four years later his Ph.D. (higher education 
administration/statistics) at age 24.

    Chairman Baird. That buzzer is the Pavlovian way of telling 
Vern and the rest of us and myself that we have got to go vote 
in about 15 minutes. We will have time, actually, for the rest 
of the testimony, and then we will have to adjourn briefly, or 
recess briefly and then come back to ask some questions.
    It is outstanding testimony so far. We will surely want to 
come back. So Dr. Campbell.

  STATEMENT OF DR. MYRON CAMPBELL, CHAIR, PHYSICS DEPARTMENT, 
                     UNIVERSITY OF MICHIGAN

    Dr. Campbell. Thank you, Chairman Baird and Ranking Member 
Ehlers for inviting me here to talk about this issue which is 
very important to me. I am the Chair of the Physics Department 
at the University of Michigan, and in this role, I have become 
much more aware of the hurdles, in spite of our best 
intentions, women have to overcome in order to be able to fully 
participate in careers in science and technology. As other 
members have said, we need all of our talents to move forward.
    In your opening statements, you mentioned that in STEM 
fields, women comprise about 18 percent of the senior faculty, 
and in physics, I am sorry to say, it is worse. It is about 
five percent, probably one of the lowest. The physical sciences 
have many stages between student and practitioner that people 
have to go through, undergraduate, graduate, post-doc, 
assistant professor and so on, and it was pointed out there is 
a disproportionate attrition at every single stage. 
Consequently, the fraction of women who become full 
professions, as it is, is now about four percent.
    And in trying to understand these issues and how to work on 
addressing these issues, I have come to four key understandings 
about the problems. And as you have just said, the first one is 
all of us have a responsibility to remove the barriers and 
effect change. I was at faculty meeting when this topic came 
up, and all heads turned towards the few women who were in the 
faculty meeting, saying what are you going to do about this 
issue. And it is not their responsibility. It is all of our 
responsibilities to work on this.
    Second, there is not a single, magic-bullet solution that 
is going to fix this. There are going to be many small steps 
required to be taken to address this issue.
    Thirdly, it is not just about the numbers. It is not just 
the five percent or the 18 percent. It is about the climate and 
it about how women are treated. I would like to share with you 
an anecdote. I am going to follow your DOT matrix story. When I 
became chair, one of the things I looked into was a--what 
written records we had about how the women in our department 
were treated. And one of the first things I did as the new 
chair was to go to everyone and apologize on behalf of the 
department for things that had happened to them that I though, 
if that had happened to me, I would have quit. Truly, there are 
many issues like this that come up, so the climate is very 
important.
    And finally, all of the things that we value in our physics 
department, our first-rate research, our excellence in 
teaching, our community outreach, all of this is being placed 
at risk by us not dealing with these climate issues.
    Many of the other comments I had were the same--I want to 
talk about some of the impact, specifically, that ADVANCE has 
had in how we conduct our business in the physics department. 
One of the key things is understanding better how to do 
searches for new faculty. And many different aspects come into 
play here.
    One is an understanding of how to read letters of 
recommendations. And once I looked at that a little bit and 
went back and looked at letters of recommendation from people 
that I know do know better, there is a lot of bias, still, in 
the letters of recommendation that has to be stripped away 
before you can accurately evaluate a candidate. The second 
thing is that we need to have a large pool of candidates. We 
cannot do a narrow search where we are looking in a field that 
may only have two or three candidates per year in the whole 
country. We need to look broadly.
    Implementing these solutions over the last four years, the 
numbers of offers we have been making have gone equally to men 
and women. Unfortunately, the acceptance ratio to Michigan for 
those offers has not been that. And that caused me to say, 
well, we now have to turn our attention towards what do we need 
to do to bring more women to the stage of being able to apply 
for faculty positions. And that is going to bring me briefly to 
my recommendations.
    One is encourage NSF to continue the ADVANCE program. It is 
been extraordinarily valuable. The second is I would also 
encourage NSF or other funding agencies to provide post-
doctoral fellowships in the same way that they provide graduate 
fellowships. The key thing here is it changes the way in which 
the post-docs are selected. Currently, we are still in the 
model of selecting post-docs by looking at only a handful. By 
having a national competition for post-doctoral fellowships, we 
will have a broadened pool, and we can try to accomplish there 
what we have done with selecting our faculty.
    And the third thing is a new awareness that scientists are 
now having babies, and our rules for doing such things--we have 
already mentioned this. For example, the American Physical 
Society is now offering grants to allow women with infants or 
small children to attend conferences, pay for daycare while 
they are there. These are small grants. They are $200. And if 
anyone thinks that taking a baby along to a conference is a 
luxury--but agencies cannot do this. They cannot support this, 
either in direct or indirect costs, because of the 821 Rule, so 
in my written testimony, I have specific recommendations for 
which 821 Rule should be modified to remove this particular 
prohibition.
    Again, thank you for the opportunity to be here today.
    [The prepared statement of Dr. Campbell follows:]
                  Prepared Statement of Myron Campbell

Introduction

    Chairman Baird, Ranking Member Ehlers and Members of the 
Subcommittee, thank you for the invitation to testify today. It is an 
honor for me to be able to contribute to the discussion of women in 
physics, and talk about the necessity of removing barriers to allow any 
member of our society to contribute to our nation's real and pressing 
needs in science and technology.
    I joined the University of Michigan in September 1989 as an 
Assistant Professor. Prior to coming to Michigan I worked eight years 
at the University of Chicago, and prior to that I was a graduate 
student at Yale University. I was promoted to Associate Professor after 
three years and to Professor in 1998. My area of research is High 
Energy Physics and I am co-author on over 300 scientific papers, mostly 
with the CDF collaboration. I was appointed Chair of the Physics 
Department in 2004.

Women in Physics

    My own appreciation of the issues of women in physics and some of 
the barriers came about four years ago during an unsuccessful attempt 
to hire a female assistant professor. During this process I became 
aware that the issue was about more than just the number of female 
faculty; that there were real barriers and biases which made it more 
difficult for talented women to participate in science.

Activities at Michigan

    Three and a half years ago I was appointed the Chair of the Physics 
Department. Shortly after becoming Chair I invited the Committee on the 
Status of Women in Physics (CSWP)\1\, a committee of the American 
Physical Society (APS), to conduct a site visit to assess the climate 
for women in our department. Over the last seventeen years CSWP has 
visited and evaluated over forty institutions. The overall assessment 
from the site visit report was that the climate at Michigan for women 
in physics needs serious improvement. There were several key points 
from the report I have used to understand how to proceed:
---------------------------------------------------------------------------
    \1\ http://www.aps.org/programs/women/index.cfm

        <bullet>  It is not the responsibility of the women in the 
        Department to effect change. Improvements will have to be 
---------------------------------------------------------------------------
        driven by the combined efforts of the senior faculty.

        <bullet>  Problems exist at all levels and areas, and there is 
        not a single solution or `magic bullet.' Improvements will come 
        from a large number of modest accomplishments.

        <bullet>  It's not just about the numbers. A major problem is 
        the climate and how the women are treated. Bringing in 
        additional female faculty must be accompanied by improving the 
        climate.

        <bullet>  All of the Department's accomplishments--first rate 
        research programs, excellent undergraduate and graduate 
        education, and successful community outreach--are placed at 
        risk by climate issues.

    With these points in mind, we took specific steps to improve the 
environment for undergraduate students through renovation of our 
introductory courses and providing student-led study sessions for 
advanced courses. We are more closely monitoring the graduate students, 
and taking early intervention for students who might otherwise drop out 
of the program. We have changed some of the graduate program 
requirements to reduce the stress graduate students feel, without 
reducing our standards. We have taken steps to improve the climate for 
female faculty. We have also modified the way we conduct searches for 
new faculty--searches are now open across all sub-fields of physics 
represented in the department.\2\ This change has resulted in our 
department making offers to nine women over the last four years, 
although, only one accepted.
---------------------------------------------------------------------------
    \2\ Advertisement in Physics Today, September 2007, page 101.
---------------------------------------------------------------------------
    Much of this effort has been through Departmental and University 
initiative and support, along with support from funding agencies for 
programs such as ADVANCE. To increase the number of women in faculty 
ranks it is necessary to increase the number of women participating at 
all levels which lead to careers in science--high school, undergraduate 
education, graduate school, and postdoctoral positions. A key area of 
difficulty is the postdoctoral position, the transition from graduate 
student to assistant professor. One of the ways to create diversity in 
the workplace is to create a broad pool of applicants. The current 
practice for hiring postdocs runs counter to this--often a faculty 
member will select a postdoc from only a few candidates, since the work 
the postdoc is required to do is narrowly defined. The few institutions 
which have privately funded postdoctoral fellowships (Chicago, Caltech, 
Princeton, Berkeley, Harvard, MIT) are able to draw a large application 
pool, and have been successful at bringing in a talented and diverse 
group of postdocs.
    I attended a workshop on gender equity\3\ held by the American 
Physical Society in May, 2006 where I shared some of my experiences 
with chairs and heads of other physics departments. The summary and 
recommendations from the workshop have been posted on the APS gender 
equity website. The department chairs attending the conference focused 
on four categories: Recruiting Students, Building a Respectful 
Environment, Faculty Hiring, and Faculty Retention. The consensus goal 
from the workshop was to double the number of women in physics over the 
next 15 years, which will require increasing the number of women 
working at all steps leading to a career in science.
---------------------------------------------------------------------------
    \3\ http://www.aps.org/programs/women/workshops/gender-equity.cfm
---------------------------------------------------------------------------

Recommendations

    I have several recommendations to the Subcommittee. The first is to 
encourage the NSF to continue the program ADVANCE: Increasing the 
Participation and Advancement of Women in Academic Science and 
Engineering Careers. I know firsthand this program has been of great 
benefit at the University of Michigan.\4\ The practices, policies and 
procedures that have been developed at ADVANCE institutions should be 
integrated both into the NSF and other research and education 
institutions.
---------------------------------------------------------------------------
    \4\ http://sitemaker.umich.edu/advance/home

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    My second recommendation addresses the `pipeline issue,' as 
illustrated in the chart provided by the American Institute of 
Physics.\5\ The figure shows the decline in the percentage of women at 
various ranks, and the prediction in yellow based on the number of 
Bachelor's degrees awarded to women in the past. This chart shows that 
the pipeline explains the small numbers of women in physics and that 
the pipeline is the problem, highlighting the need for eliminating 
gender bias at every career stage. Universities such as Michigan can 
work on some stages of the pipeline on their own, for example promotion 
from assistant professor to associate professor, or improvement in 
undergraduate education. One of the findings of ADVANCE was that open, 
broad based, as opposed to narrow, searches provides a larger, more 
diverse pool of applicants. While our Department has been able to do 
this for graduate admissions and assistant professor searches, we have 
not been able to do this at the postdoctoral level. I recommend that 
NSF expand their Postdoctoral Fellowships program to include Physics, 
similar to the existing programs in Astronomy and Biology. Such a 
program would draw a large pool of applicants.
---------------------------------------------------------------------------
    \5\ http://www.aip.org/statistics/trends/highlite/women05/
figure11.htm
---------------------------------------------------------------------------
    My third recommendation is to eliminate some of the barriers to 
women, especially women with young children, which is codified in OMB 
circular A-21.\6\ Section J.32 on Meetings and Conferences should be 
modified to specifically allow for women to take infants or small 
children to conferences and the cost of childcare during the conference 
should be an allowable direct or F&A expense. Section J.53 in a similar 
way should allow for the travel costs associated with having small 
children be an allowable direct or F&A expense. Section J.42 on 
recruiting costs should be modified to recognize that attracting top 
talent, either male or female, now often requires spousal 
recruitment,\7\ which should be either an allowed direct or F&A cost.
---------------------------------------------------------------------------
    \6\ http://www.whitehouse.gov/omb/circulars/a021/a021.html
    \7\ ``Education in Nuclear Science,'' a report to the DOE/NSF 
Nuclear Science Advisory Committee, pp. 4-15 (November 2004), http://
www.sc.doe.gov/henp/np/nsac/docs/
NSAC<INF>-</INF>CR<INF>-</INF>education<INF>-</INF>report<INF>-</INF>fin
al.pdf
---------------------------------------------------------------------------

Conclusion

    Thank you again for the opportunity to testify today. I hope I can 
continue to be of service on this issue. Advances in science and 
engineering require the talent, hard work, and ingenuity of a large and 
diverse workforce. Women represent about half of our entering 
undergraduates interested in science and engineering, yet they 
represent a much smaller fraction of our scientific workforce. We all 
must work to remove barriers.

                      Biography for Myron Campbell

Education

1977-1982--Yale University, New Haven, CT; Ph.D., Physics Advisor 
        Robert K. Adair

1973-1977--Otterbein College, Westerville, OH; B.A., Physics

Employment

2004-Present--University of Michigan, Ann Arbor, MI; Chair, Physics 
        Department

1998-Present--University of Michigan, Ann Arbor, MI; Professor

1992-1998--University of Michigan, Ann Arbor, MI; Associate Professor

1989-1992--University of Michigan, Ann Arbor, MI; Assistant Professor

1989--University of Chicago, Chicago, IL; Senior Scientist

1985-1989--University of Chicago, Chicago, IL; Senior Research 
        Associate

1982-1985--University of Chicago, Chicago, IL; Research Associate

1982--Yale University, New Haven, CT; Research Associate

Awards

Fellow of the American Physical Society, 1998

LS&A Excellence in Education Award, 1996

A.P. Sloan Fellow, 1990-1991

A.H. Compton Lecturer, University of Chicago, 1985

Professional Service

1990-present--CDF Executive Board

1993-1994--Femilab Users Executive Committee

1990-1993--SDC Technical Board

Departmental Committees (selected)

1998-1999--High Energy Theorist Search Committee; Undergraduate 
        Concerns Committee

1996-1998--High Energy Experimental Search Committee, Chair

1994-1997--Undergraduate Concerns Committee; Undergraduate Laboratory 
        Committee

1993-1994--Department Computing Committee, Chair

1992-1993--HEP Spin Physics Search Committee

1991-1994--Graduate Admissions

College and University Committees (selected)

2003--LS&A Executive Committee

1997-1998--CRLT Advisory Board

1995-1999--LS&A Curriculum Committee

1994--University Task Force on Research Computing

Research Activities

    My research activities are in the area of high energy hadron 
collisions. I am involved in the CDF (Collider Detector at Fermilab). 
My efforts in this collaboration have been in the area of triggering, 
i.e., identifying events of interest. My analysis efforts are directed 
towards studies of top production and decay systematics.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Baird. I appreciate the comment. My wife, a Ph.D. 
economist, is traveling to Seattle now for a conference, and I 
am in care of two two-year, seven-month-old twins. It is not a 
luxury to leave them behind either.
    I did acknowledge earlier, Mr. Neugebauer from Texas, as 
well, and I should inform my colleagues, I misspoke earlier. 
The Pavlovian conditioning is too strong in me. We aren't 
voting yet. We are just going back into session in a few 
minutes, so we have a little more time and less time pressure, 
which is good news.
    Dr. Ritter, please.

  STATEMENT OF DR. GRETCHEN RITTER, PROFESSOR OF GOVERNMENT; 
DIRECTOR, CENTER FOR WOMEN'S AND GENDER STUDIES, UNIVERSITY OF 
                        TEXAS AT AUSTIN

    Dr. Ritter. Good afternoon. Thank you, Mr. Chairman, other 
Subcommittee Members. I am please to be with you today to talk 
about ways to increase women's participation in academic 
science and engineering.
    It has been 35 years since the passage of Title IX, yet 
women continue to lag behind men in academic achievement, 
particularly in the STEM disciplines. Research suggests that 
these disparities are not due to differences in aptitude or 
native interest between men and women. Rather, the causes lie 
elsewhere, in the institutional structure and culture that 
discourage women's participation in science and engineering in 
limits their potential for success in those fields. While the 
era of explicit sex discrimination in higher education may be 
fading--hopefully fewer DOT matrix moments--implicit bias 
continues to play a significant role in determining 
opportunities for entry and advancement for women as well as 
minority faculty members.
    There remain four great barriers to women's advancement in 
higher education: climate, which we have talked about today; 
professional assessment and rewards; work-family balance; and 
the absence of senior women. On this last barrier, I contend 
that the presence of women in senior ranks has a large impact 
on the overall institutional climate, on the strength of 
mentoring programs, on the impact of implicit bias and 
assessment, on the visibility of positive role models, and on 
the creation of a family-friendly institutional culture.
    In addressing these barriers, universities should design a 
program that emphasizes four features: accountability, 
assessment, continuity, and leadership. Assessment will allow 
universities to determine whether their efforts to recruit and 
retain women faculty are successful, and if not, how they may 
be redesigned to increase the likelihood of success.
    Regarding continuity, effort to increase women's 
participation takes sustained, continuous commitment to make a 
lasting difference. All too often, institutions put together a 
program. They do a good job. And then they stop. And when they 
stop, progress in recruiting and retaining women stops as well. 
We have to keep going. We have to sustain these efforts for the 
long-term. It is not a short-term effort.
    What role can the Federal Government play? First, the NSF 
should expand the ADVANCE program beyond individual campuses, 
into other fields where women and minority faculty are under-
represented, particularly, I would argue with social sciences, 
because that will help with other areas. Social scientists 
really supply us with much of the research we need to 
understand these institutional barriers.
    Second, the Federal Government should use Title IX 
enforcement as a means of advancing women in under-represented 
field. The original intent of Title IX was to ensure equal 
educational opportunity for both sexes. Yet relatively little 
has been done outside of athletics to make that mandate 
meaningful when it comes to addressing opportunities for 
advancement and achievement in traditionally male-dominated 
fields in higher education.
    Like Dr. Shalala, I am on the women's athletic council at 
UT and we just went through out NCAA recertification. If we 
gave that kind of attention to gender equity and equal 
opportunity in academic fields, we would be doing so much 
better.
    We now know that the academic achievement of young women in 
math, science, and engineering, depends on the presence of 
positive female role models and on women peers in the 
classroom. To support educational opportunity for women, we 
ought to leverage federal education and research funding to 
mandate Title IX compliance. Creating equal opportunity for 
women faculty will allow younger women to imagine themselves as 
the next generation's great scientists and inventors.
    Thank you.
    [The prepared statement of Dr. Ritter follows:]
                Prepared Statement of Gretchen Ritter\1\
---------------------------------------------------------------------------
    \1\ The author wishes to thank Janet Ellzey, Kiersten Ferguson, J 
Strother Moore, Shelley Payne, Linda Reichl, Bev Vandegrift, Gregory 
Vincent, and Sharon Woods for their assistance in the preparation of 
this testimony.
---------------------------------------------------------------------------

Executive Summary

1.  The largest remaining barriers to women's advancement in academic 
science and engineering include:

        a.  Climate--Even when universities are successful in 
        recruiting women and minority faculty, they tend to leave at 
        greater rates due to climate concerns.

        b.  Professional Assessment and Rewards--The professional 
        assessment and reward structures of universities often allow 
        for unconscious or implicit bias to play a role in providing 
        disparate opportunities and rewards for equally qualified male 
        and female faculty.

        c.  Work-Family Balance--Within academia, our expectations 
        about tenure, career trajectories and productivity, and the 
        conduct of research and professional service to one's 
        department and discipline, still presume that the full-time 
        faculty are unencumbered by family responsibilities or 
        caregiving expectations for children, partners, or elderly 
        parents.

        d.  Absence of Senior Women--The presence of women in the 
        senior ranks has a large impact on climate, mentoring, the role 
        of implicit gender bias in faculty assessment, the visibility 
        of positive role models, and the creation of a family friendly 
        institutional culture.

2.  Universities should focus on the following in addressing these 
barriers:

        a.  Accountability--Universities should implement procedures 
        that promote accountability in their efforts to recruit and 
        retain women faculty.

        b.  Assessment--Universities should also assess their efforts 
        to increase recruitment and retention of women in order to 
        identify which efforts are most successful and which efforts 
        are not.

        c.  Continuity--These efforts take sustained, continuous 
        commitment to make a substantial difference. Too often, when 
        successful programs end, so does progress in the recruitment 
        and retention of women faculty.

        d.  Leadership--The universities that have made substantial 
        gains in recruiting women faculty in under-represented fields 
        are the ones that have a president or a provost who is 
        forthright, articulate, and visibly committed to the value of 
        having a diverse and equitable faculty.

3.  The Federal Government should:

        a.  Expand the ADVANCE initiative to include minorities and 
        women in other under-represented fields, especially in the 
        social sciences.

        b.  Use Title IX enforcement as a means of advancing women in 
        academic science and engineering.

I. Introduction

    It has been 35 years since the passage of Title IX of the 
Educational Amendments of 1972, yet women continue to lag behind men in 
educational achievement, particularly in the STEM\2\ disciplines. 
Research suggests that these disparities are not due to differences in 
aptitude or potential interest between men and women. Rather, the 
causes lie elsewhere--in the institutional structures and culture that 
discourage women's participation in science and engineering, and limit 
their potential for success in those fields.\3\ While the era of 
explicit sex discrimination in higher education may be fading, social 
science research suggests that implicit bias continues to play a 
significant role in determining opportunities for entry and advancement 
for women (as well as minorities) in higher education. The barriers to 
women's achievement remain significant.
---------------------------------------------------------------------------
    \2\ STEM is an acronym that stands for Science, Technology, 
Engineering, and Math.
    \3\ See the National Academies, Beyond Bias and Barriers: 
Fulfilling the Potential of Women in Academic Science and Engineering 
(Washington, DC: the National Academies Press, 2006).
---------------------------------------------------------------------------
    We cannot afford to tolerate women's continued exclusion from these 
fields. The absence of women in academic science, social science, and 
engineering has a negative impact in a variety of important areas. 
Having a diverse higher education faculty is important to the Nation's 
well-being. If the United States is to remain a world leader 
economically, and in scientific and technological innovation, we must 
recruit talented people from all sectors of our society to become 
scientists and engineers. If we want to encourage women to become 
engineers, African American men to become elementary school teachers, 
and Hispanic women to be business professionals and lawyers, then we 
need a faculty that shows our students that women and people from 
different racial and ethnic backgrounds can achieve and succeed in 
every field. Too often, I have had women students tell me that they 
came to college wanting to be scientists or engineers, but left that 
field because they felt isolated or discouraged when they had no women 
classmates or women professors.
    We also need to have a diverse faculty in order to advance academic 
excellence. If we fail to recruit and retain women in economics or 
physics, then we deny ourselves the opportunity to benefit from the 
talent and insights of half of the population. If we have no black or 
Hispanic senior faculty in psychology or government, then we might have 
a faculty that is less motivated to exploring issues such as the impact 
of racial stereotyping on social achievement or the role that black 
churches play in national politics. Recruiting faculty from all sectors 
of the population allows us to draw on a broader pool of talent in 
building academic excellence. Retaining a diverse faculty means we 
benefit from having researchers and teachers whose approach to 
knowledge is shaped by a range of social experiences and interests. 
Women are more likely to enter technological and scientific fields 
because of their interest in social issues, like advancing children's 
health, or improving the lives of the disabled. So recruiting a more 
diverse faculty is likely to shape the research agenda and scientific 
innovations of the next generation.
    Finally, it is worth remembering that American universities have 
always played a vital role in the development of our nation's economic, 
political and social leadership. It is part of the mission of public 
universities in particular to provide access to educational 
opportunities as a means of developing a diverse leadership for a 
democratic nation. With the advent of globalization, it is more 
important than ever that we encourage the development of leaders who 
operate well in an interconnected world marked by differences of race, 
religion, gender and culture. Public universities can provide both a 
social climate and an intellectual environment that is supportive of 
diversity and leadership. Since advances in fields like information 
technology will shape our economy and our society in decades to come, 
it is essential that women and minorities be recruited into those 
fields, as scientific leaders in a sector that will shape our nation's 
future. We will all benefit if the Michael Dells, Bill Gates, and Steve 
Jobs of the next generation come from a more diverse cross section of 
our community. Our universities can help to make that happen.

II.  Efforts at the University of Texas at Austin to Recruit and Retain 
                    Women in Science and Engineering

    Currently, at the University of Texas at Austin, women make up 10.6 
percent of the tenured and tenure track faculty in the College of 
Engineering, and 12.7 percent of the tenured and tenure track faculty 
in the College of Natural Sciences.\4\ Among assistant professors, 
women make up 19 percent of the faculty in Engineering and Natural 
Sciences. Overall, at the university as of 2006, women constitute 18 
percent of the full professors, 38 percent of the associate professors, 
and 39 percent of the assistant professors. Further, 24 percent of the 
tenured faculty are women at the university. So while there are fewer 
women in science and engineering, women are under-represented within 
the tenured and tenure track faculty university wide. According to the 
AAUP Faculty Gender Equity Indicators 2006 report, the comparable 
figures for the proportion of women faculty at doctoral universities 
nationwide are 19 percent of the full professors, and 40 percent of the 
assistant professors.\5\ This same report indicates that 26 percent of 
the tenured faculty are women at doctoral institutions nationwide. So 
the University of Texas at Austin is close to these national averages, 
but slightly below those averages.
---------------------------------------------------------------------------
    \4\ These figures are calculated from the 2006-7 Statistical 
Handbook (Office of Information Management and Analysis, UT Austin). 
Please see table FS 8, pp. 119-120. For the College of Natural 
Sciences, the faculty in the Department of Human Ecology were not 
included in the calculation, since these are primarily social 
scientists.
    \5\ Martha S. West and John W. Curtis, AAUP Faculty Gender Equity 
Indicators 2006 (Washington, DC: AAUP, 2006). See Figures 4 & 5, pp. 8 
& 10.
---------------------------------------------------------------------------
    There are programs at the University of Texas at Austin that seek 
to address the under-representation of women in academic science and 
engineering. The College of Engineering created the Women in 
Engineering Program (WEP) in 1992. This program seeks to recruit women 
students, and increase the proportion of women receiving undergraduate 
degrees in engineering at the University. The primary focus of their 
efforts has been to provide academic and peer support to first and 
second year women undergraduates. Within the College of Natural 
Sciences, the Women in Natural Sciences program (WINS) focuses 
primarily on issues facing women students at the undergraduate level. 
One successful WINS initiative that began in 2001 is the Honors 
Residential Program for women undergraduates in natural science. The 
students who participate in this program are found to have a higher 
level of academic success and retention than female students in natural 
sciences who do not participate in the program. The College of 
Engineering now offers a similar residential program for first year 
students, called WELD.
    Both WEP and WINS offer K-12 programs as well, designed to 
encourage interest in sciences and engineering among middle school and 
high school girls. The ``Science in Action Program'' is aimed at area 
schoolgirls between the ages of 11-15. This day-long program allows 
students to participate and observe science demonstrations at the 
college's research labs. WINS also supports the work of Girlstart, a 
local nonprofit organization which promotes science and math learning 
among elementary and middle school girls. Likewise, each February, the 
College of Engineering hosts the ``Introduce a Girl to Engineering 
Day,'' which attracts over 1,000 area schoolgirls to participate in 
demonstrations and workshops designed to promote interest in 
engineering. In addition to these efforts, the Center for Women's and 
Gender Studies (CWGS) has a school partnership agreement with the Ann 
Richards School for Young Women Leaders. The Ann Richards School is a 
public, all girls middle school that focuses on success in the STEM 
disciplines. Under the partnership agreement, CWGS provided mentoring 
and professional development support to the faculty and staff at the 
school. CWGS faculty also conduct research at the school to assess the 
effectiveness of its programs.
    Less has been done at the graduate or the faculty level to promote 
the recruitment and retention of women in engineering and science. In 
the late 1980s and 1990s, Target of Opportunity funding was made 
available through the provost's office to assist in recruiting women 
and minority faculty in fields where they were under-represented. This 
funding made a substantial difference in the number of women faculty 
hired. In the College of Engineering, for instance, the number of 
tenured or tenure track faculty increased from just eight in 1987 to 21 
in 1997. When this funding was withdrawn, hiring and retention efforts 
stalled, so that in 2002 there were still only 21 women faculty (nine 
percent of the total) in the College of Engineering.\6\ With the help 
of leadership by the dean and various department chairs in recent 
years, the number of women faculty in the college has now risen to 26, 
which still represents under 11 percent of the total tenured/tenure 
track faculty in the college. Within the College of Natural Sciences, 
over the past five years WINS has sponsored five workshops for chairs, 
executive assistants, and search committee members on best practices 
for diversity recruiting and has created an online faculty recruiting 
handbook. Three CNS departments have implemented these best practices, 
under the leadership of a strong Chair or search committee chair, and 
all three have doubled their representation of women faculty. Apart 
from these workshops and chair led efforts in particular departments 
(such as Computer Science), relatively little has been done to promote 
increased recruitment and retention of women faculty. To date, UT 
Austin has not participated in the ADVANCE program.
---------------------------------------------------------------------------
    \6\ These figures were obtained from a powerpoint presentation made 
by Dr. Sherry E. Woods, (Director of Special Projects in the College of 
Engineering), dated November 1, 2002.
---------------------------------------------------------------------------
    At the level of the university as a whole, efforts have been made 
to address the needs of women faculty and the situation of women in 
under-represented fields. In 1999, a report was done on the status of 
women, which revealed some faculty salary inequities by gender. The 
provost's office set aside funding to address those inequities in 2000. 
One barrier to professional achievement for women academics nationally 
involves work-family balance issues. Overall women are still more 
likely to have primary responsibility for addressing dependent care 
needs within families. Further, women academics are also more likely to 
be married to male academics (and to male professionals), which makes 
dual career issues of greater importance to women academics. UT Austin 
has sought to address these concerns in recent years by expanding the 
amount of university provided childcare that is available to faculty, 
and by reserving some spots at the childcare center for use in faculty 
recruitment. Funding is also available from the provost's office for 
faculty spousal hiring. Further, the university now offers a modified 
instructional duties policy, which is intended to allow faculty with 
substantial caregiving responsibilities for newborns to be relieved of 
their obligation to teach full-time for a semester while still 
receiving their full salaries.
    In 2006, the university created the Division of Diversity and 
Community Engagement which is charged with promoting diversity and 
gender equity for students, staff, and faculty. This division is 
working with the provost's office to promote hiring that will increase 
the number of women and minorities on the faculty. The provost's office 
also recently created the Gender Equity Task Force which is charged 
with examining the situation of women faculty on campus and 
recommending policies that promote gender equity. The task force (which 
I co-chair, along with Dr. J. Moore, Chair of Computer Science) is 
expected to complete its work and issue its report next spring.
    These efforts are important, but more remains to be done. 
Nationally, many universities have become aware that the advancement of 
women faculty in under-represented fields requires focused and 
continuous effort by the institution as a whole. UT Austin does not 
currently have a clear and effective leader on gender equity in our 
central administration. While the president and the provost have voiced 
support for gender equity, there need to be mechanisms created that 
will hold deans and department chairs accountable for their 
achievements in this domain. There also needs to be someone with 
authority in the higher administration whose primary responsibility 
includes oversight of efforts to increase the university's recruitment 
and retention of women in under-represented fields. Finally, more 
effort should be given to assessment, so that we know whether the 
programs and policies that we sponsor are effective and should be 
sustained.

III.  Remaining Challenges, Promising Solutions

    Nationally, there have been substantial increases in the number of 
women obtaining undergraduate degrees in the sciences, social sciences 
and engineering. The numbers of doctorates awarded have also increased 
substantially in many disciplines, yet this has not translated into 
comparable increases in the proportion of women faculty in these 
fields. What are the major barriers to the retention and promotion of 
women faculty within higher education nationwide? Further, how might 
these barriers be most effectively addressed within academia? In this 
section, I briefly highlight the most significant barriers to the 
advancement of women in under-represented fields in the areas of 
climate, professional assessment and reward, work-family balance, and 
the absence of senior women. Following the discussion of these 
challenges, I review the most promising areas where solutions may be 
sought to the problem of women's under-representation in academia. My 
recommendations in this area focus on accountability, assessment, 
continuity, and leadership.\7\
---------------------------------------------------------------------------
    \7\ Please note that since the Gender Equity Task Force at UT 
Austin is still collecting and analyzing data, the applicability of the 
recommendations in this section for UT Austin have yet to be 
determined.

Climate
    Institutional climate has a large impact on whether women and 
minority faculty thrive and are retained in fields where they are 
under-represented. Even when universities are successful in recruiting 
women and minority faculty, they tend to leave at greater rates due to 
climate concerns. Sometimes women and minority faculty have less access 
to the informal professional networks that are important to their 
professional success. They may feel as though their achievements and 
credentials are regarded as suspect by students and colleagues alike. 
There may be few people in their department with whom they can 
communicate about the particular challenges they face in establishing 
authority in the classroom, in responding to the needs and expectations 
of women and minority students, or in finding social connections with 
people from similar social backgrounds outside of the university. Women 
faculty (as well as many male faculty with substantial caregiving 
responsibilities) may sense that there is a lack of sympathy or support 
for their family responsibilities. Finally, if there are no senior 
women or minority faculty within their department (or administrators at 
their institution), then junior faculty are more likely to feel 
professionally isolated, and to doubt whether their institution will 
ever promote and retain someone like them.
    To address some of these climate concerns, several things are 
helpful.\8\ Universities should create strong mentorship programs that 
address concerns about intellectual community and social networks as 
well as professional development. They should also establish clear 
policies that promote a family friendly work environment for faculty. 
Where campus wide organizations for women and minority faculties exist, 
they should be supported and strengthened. Where they do not exist, 
they should be created. Support for interdisciplinary centers in 
racial, ethnic, or women's studies may also play a role in promoting 
intellectual community and social connection among women and minority 
faculty in a variety of fields. Finally, there should be forums, 
lectures, and workshops that promote frank and open discussions of 
climate issues on campus.
---------------------------------------------------------------------------
    \8\ Also see Jean Waltman and Carol Hollenshead, ``Creating a 
Positive Departmental Climate: Principles for Best Practices,'' 
Prepared for NSF ADVANCE at the University of Michigan, available at 
http://www.umich.edu/%7Eadvproj/
BestPracticesReport<INF>-</INF>FINAL<INF>-</INF>Aug07.pdf

Professional Assessment and Rewards
    The professional assessment and reward structures of universities 
often allow for unconscious or implicit bias to play a role in 
providing disparate opportunities and rewards for equally qualified 
male and female faculty. Like everyone in our society, academics employ 
information assessment shortcuts, or cognitive schemas, that filter 
information according to pre-existing understandings about how the 
world works. Such schemas include deeply rooted race and gender 
stereotypes.\9\ These schemas, or unconscious biases, play a greater 
role in influencing assessments if they remain implicit and 
unaddressed, if assessments are made in a largely subjective fashion, 
and if the group conducting the assessment is not itself socially 
diverse. Typical university procedures for faculty recruitment, 
assessments for salary recommendations, and promotions evaluation all 
rely on assessment processes that are largely subjective and that may 
be conducted by a largely homogeneous group of evaluators. Further, the 
impact of these disparate assessments accumulate over time, so that 
over the course of their careers, women academics in under-represented 
fields may perpetually receive slightly smaller rewards and slightly 
fewer opportunities, until a decade or two down the line when they make 
receive lower salaries, are less likely to have advanced to the rank of 
full professor, and have less lab space than their equally accomplished 
male counterparts.\10\
---------------------------------------------------------------------------
    \9\ See V. Valian, Why So Slow? The Advancement of Women 
(Cambridge, MA: MIT Press, 1998).
    \10\ JR Cole & B Singer, ``A Theory of Limited Differences: 
Explaining the Productivity Puzzle in Science,'' in H. Zuckerman, JR 
Cole and J Bruer, eds., The Outer Circle: Women in the Scientific 
Community (NY: Norton, 1991).
---------------------------------------------------------------------------
    Universities can do several things to alleviate the impact of 
unconscious bias on professional assessments or rewards. They can 
mandate that assessments be conducted in an objective fashion, with 
clear criteria for professional achievement and productivity.\11\ Where 
possible, professional assessments should be conducted blindly, without 
awareness of the race, ethnicity or gender of the person being 
evaluated. Yet, if a blind assessment is not possible (and there are 
often implicit indicators of race or gender in someone's professional 
record), then the assessors should be encouraged to be self-aware about 
the role that race and gender biases may play in their assessments. 
Self-awareness can decrease the influence that biases have on 
assessment. Finally, assessments should be conducted by diverse 
assessment teams. Universities should put in place procedures that 
insure the racial and gender diversity of faculty search committees, 
salary review committees, and promotion and tenure committees.
---------------------------------------------------------------------------
    \11\ Claudia Goldin & C. Rouse (2000), ``Orchestrating 
Impartiality: The Impact of `Blind' Auditions on Female Musicians,'' 
American Economic Review 90:715-741.

Work-Family Balance
    The creation of family support policies at universities benefits 
the entire faculty and not just women. After the second world war, 
public and private social benefits programs were based on the 
presumption of a family structure that included a male breadwinner and 
a female caregiver. With the huge influx of women into the labor 
market, as well as changes in patterns of marriage, divorce, and 
childbearing, we no longer live in a society in which the breadwinner/
caregiver model is applicable. But our employment policies and 
presumptions have yet to adjust to fact that most family caregivers are 
also paid employees, and that many caregivers have no other adult in 
the household to rely upon in sharing the duties of care and economic 
provision.\12\ Within academia, our expectations about tenure, career 
trajectories and productivity, and the conduct of research and 
professional service to one's department and discipline, still presume 
that the full-time faculty are unencumbered by family responsibilities 
or caregiving expectations for children, partners, or elderly parents. 
Those presumptions are clearly unrealistic, and they are particularly 
harmful to women faculty who are more likely to be limited by the 
professional careers of their spouses, and more likely to have primary 
caregiver responsibility for family members. Further, to a greater 
degree than ever before, younger academic men are likely to have 
substantial caregiving responsibilities for their children, and to have 
spouses who work full-time. So both in the interest of gender equity, 
and in the interest of attracting men and women of talent into academic 
careers, universities must do more to support the family 
responsibilities of their faculty.
---------------------------------------------------------------------------
    \12\ Joan Williams, Unbending Gender (NY: Oxford University Press, 
2000).
---------------------------------------------------------------------------
    At the University of California at Berkeley, Drs. Mary Ann Mason 
and Marc Goulden have been national leaders in assessing the impact 
that work-family conflict has on the under-representation of women in 
academia, and in recommending policies and piloting programs intended 
to address these issues.\13\ Most research universities now provide 
some childcare, unpaid childbearing leave, and stop-the-clock policies 
that extend the tenure clock for faculty with substantial caregiving 
responsibilities, as well as some assistance for dual career issues. In 
addition, Mason and Golden recommend that universities implement 
programs that create part-time tenured or tenure track options for 
faculty with substantial caregiving responsibilities, provide paid 
childbearing leave, provide emergency back-up childcare, assist spouses 
and partners of faculty with employment relocation services, provide 
re-entry post-doctoral fellowships for faculty who have taken time off 
to focus on family care needs, and create policies that insure family 
friendly calendars and scheduling for faculty.
---------------------------------------------------------------------------
    \13\ For more information on their research and on the Family 
Friendly Edge Project at UC-Berkeley, go to http://
ucfamilyedge.berkeley.edu/

Absence of Senior Women
    In recent years, many universities have increased their efforts to 
recruit women faculty at the assistant professor level. These efforts 
are important and should be continued. Yet institutions often become 
frustrated by the difficulties they face in retaining and promoting the 
junior women they have recruited. Not only does this difficulty 
represent a failed investment by the university in their efforts to 
cultivate faculty talent, it may also reinforce negative stereotypes 
about women faculty, by suggesting that junior women are less likely to 
stay in academia or to succeed in getting promoted to the tenured 
faculty. It is little surprise, then, that some senior male faculty 
wonder whether efforts to recruit junior women are worthwhile. What 
this perspective neglects, however, is the important role that senior 
faculty women play in creating institutional cultures in which junior 
faculty women are likely to succeed. The presence of women in the 
senior ranks has a large impact on the climate of a department and an 
institution, on the ability of institutions to provide mentoring that 
is supportive of diversity, on the role of implicit gender bias in 
faculty assessment and reward structures, on the service demands 
imposed on more junior faculty women, on the visibility of positive 
role models for junior faculty women and women students, and on the 
creation of a family friendly institutional culture within departments 
and colleges. For all of these reasons--and because the delay or 
departure of women faculty before they reach the senior ranks 
represents a loss of accumulated experience, insight, and potential 
innovations--more effort should be made to reward and retain women at 
or near the senior level.
    In order to reward and retain women at or near the senior faculty 
level, universities should consider implementing some of the following 
policies and programs. They should fund efforts that result in more 
senior faculty women being hired. They should provide support for 
elder-care responsibilities, which are more likely to fall to women at 
the mid-career stage. They should provide research assistance and 
leaves for associate level faculty who undertake substantive service or 
administrative positions, such as associate dean, center director, or 
faculty senate chair. In fields where there are fewer women, the desire 
for diverse representation in administrative and service roles often 
leads to greater service demands on women at an earlier career stage. 
Efforts should be made to decrease the impact that such demands have on 
the research productivity of mid-career women faculty. Since women 
faculty are less likely to seek outside offers as a means of raising 
their salaries, efforts should be made to provide equity related and 
productivity based salary adjustments without having to rely on outside 
offers. Finally, attention should be given to the way in which endowed 
professorships and chairs are awarded to internal faculty. To 
counteract the possible impact of implicit gender bias and the greater 
professional isolation of senior women faculty, the awarding of endowed 
positions to internal faculty should be overseen by a diverse panel of 
senior faculty from across the campus.

Accountability, Assessment, Continuity and Leadership
    For each of the areas discussed above, attention has been given to 
efforts that universities can undertake to reduce the impact of 
institutional barriers to the advancement of women in under-represented 
fields. This section concludes with additional suggestions of ways that 
universities nationally can promote the recruitment and retention of 
women in under-represented fields.
    Universities should implement procedures that promote 
accountability in their efforts to recruit and retain women faculty. 
Accountability means requiring colleges and departments to report on 
their recruitment, promotion and retention efforts regarding the 
identification of a diverse pool or applicants, the proportion of 
applicants by sex and race, the composition of search committees, and 
the composition of governance committees that make hiring, promotion, 
and salary recommendation decisions. Accountability also means 
requiring deans and department chairs in fields where there is 
substantial under-representation to set goals for improving the 
representation of women faculty, and then providing or withholding 
resources in relation to their progress in achieving those goals. If, 
for instance, a department proves to be stubbornly unwilling to recruit 
any women faculty over a number of years, then they should be 
restricted in their ability to hire new faculty. Finally, 
accountability should include the ability and willingness of a dean or 
a provost to intervene when policies and procedures implemented to 
promote the recruitment and retention of women are not followed. For 
instance, if participants in a faculty search fail to make a good faith 
effort to identify and solicit applications from qualified women 
candidates, then a dean or provost should be willing to stop the 
faculty search until the failure to follow these procedures is 
corrected. Without accountability, goals and policies may be rendered 
meaningless.
    Universities should also assess their efforts to increase 
recruitment and retention of women in order to identify which efforts 
are most successful and which efforts are not. Assessments of programs 
and policies should be done following standard social science protocols 
that promote objective evaluations. Program evaluations should be 
published, so that they may be scrutinized within the university 
community and by academics elsewhere. Where assessments provide strong 
evidence of the success of a program or policy, increased support 
should be given to that policy, and the policy should be replicated by 
other departments and colleges within the university. Where programs or 
policies do not succeed, an analysis should be done to identify the 
reasons for their failure, in order to improve the university's efforts 
in this area.
    Continuity is also important to the success of these efforts. All 
too often, in the wake of a particular report or in response to an 
outspoken faculty leader, universities make short-term efforts to 
address gender equity concerns through one time efforts to correct 
disparities in salaries or promotion rates, or with short-term 
initiatives intended to increase the number of junior women who are 
hired. But even in the case of successful programs, like the Target of 
Opportunity fund that was used to recruit women in under-represented 
fields at UT-Austin, when the program ends, so does progress in the 
recruitment and retention of women faculty. These efforts take 
sustained, continuous commitment to make a substantial difference. Not 
until the culture of an institution has thoroughly changed and there is 
a proportionate number of women in the senior faculty and 
administration of our universities should we consider letting up in our 
efforts to recruit more women in academic science and engineering.
    Finally, to succeed these efforts take leadership from the highest 
levels of the university. The universities that have made substantial 
gains in recruiting women faculty in under-represented fields are the 
ones that have a president or a provost who is forthright, articulate, 
and visibly committed to the value of having a diverse and equitable 
faculty. Whenever searches are conducted for a new dean, provost, and 
president, strong candidates should have a record that verifies their 
commitment to faculty diversity and equity. Administrative leaders can 
help to set the tone for the entire institution. They can help to 
explain the value of equity and diversity to their senior faculty and 
department chairs. And they can hold deans and chairs accountable for 
their successes and failures in this area.

IV.  Role of Federal Funding Agencies

    The ADVANCE\14\ initiative has made a substantial difference in the 
representation of women in science and engineering at several leading 
universities such as the University of Michigan. The ADVANCE program 
ought to be expanded in several respects: the initiative should be 
broadened to include women in all under-represented fields, 
particularly including the social sciences; the initiative ought to be 
aimed to increasing the proportion of minority faculty (along with 
women) in the STEM disciplines; and it ought to be broadened beyond 
individual universities. Regarding the last point, the PAID Awards 
clearly seek to have a broadening effect in encouraging the 
universities with successful ADVANCE programs to serve as models for 
universities elsewhere.
---------------------------------------------------------------------------
    \14\ ADVANCE is an National Science Foundation program for 
``Increasing the Participation and Advancement of Women in Academic 
Science and Engineering Careers.''
---------------------------------------------------------------------------
    Including women from the social sciences in the ADVANCE grants is 
important for a number of reasons. Social scientists can provide the 
research needed to understand why women and minorities are under-
represented in academia. They can also play a crucial role in designing 
programs aimed at rectifying those difficulties. Since social science 
participation is important to the success of ADVANCE grants, and since 
women social scientists are more likely to undertake research that 
examines the effects of gender bias, it would be helpful to include 
social scientists in the ADVANCE program. Further, on their own merits, 
it is important to have a diverse social science faculty since social 
scientists help to understand how society operates, and their research 
helps to address social problems such as the under-representation of 
groups in the economy, politics and education. Which social problems we 
choose to study will depend, in part, on who the social scientists are 
who conduct the research. Finally, the involvement of social scientists 
is important to changing the institutional culture of universities 
overall. Social science exists at something of a midway point between 
science and engineering on the one hand, and the fine arts and 
humanities on the other. Social scientists can play a crucial role in 
explaining the nature of this problem and formulating solutions 
regarding under-representation to both the positivists in the sciences 
and engineering, and to the humanists in the arts and humanities.
    Another way to increase the impact of these efforts is through 
Title IX enforcement.\15\ The Society of Women Engineers is among the 
groups now advocating for increased reliance on Title IX enforcement as 
a means of advancing women in academic science and engineering. In 
2004, the GAO asked granting agencies to insure that grant recipients 
were in compliance with Title IX.\16\ What this might mean in practice 
and whether such compliance reviews are being conducted is not entirely 
clear. Last year, Senators Boxer and Wyden called for an amendment to 
the National Science Foundation Reauthorization Act that would require 
the NSF to conduct compliance reviews as well. The original intent of 
Title IX was to insure equal education opportunity for both sexes. Yet 
relatively little has been done (outside of the arena of athletics) to 
make that mandate meaningful when it comes to addressing opportunities 
for academic achievement and advancement for women in traditionally 
male dominated fields. We now understand more clearly than ever before 
that the academic achievement of young women in math, engineering, and 
science depends on the presence of positive female role models as well 
as women peers in the class room. To support equal academic 
opportunities for these young women, we ought to use the leverage of 
federal education funding to mandate Title IX compliance within the 
faculty of our research universities. Creating equality of opportunity 
for women within the faculty will have a big effect in allowing a young 
woman to imagine herself as one of the great scientists or inventors of 
her generation.
---------------------------------------------------------------------------
    \15\ Richard Zare, ``Sex, Lies and Title IX: Federal Law Banning 
Sex Discrimination in School May do as Much for Academics as it has for 
Athletics,'' Chemical & Engineering News Vol. 84 (May 15, 2006): 46-49.
    \16\ GAO report 04-639: ``Gender Issues: Women's Participation in 
the Sciences Has Increased, but Agencies Need To Do More To Ensure 
Compliance with Title IX,'' www.gao.gov/new.items/d04639.pdf

                     Biography for Gretchen Ritter
    Dr. Gretchen Ritter is Professor of Government and Director of the 
Center for Women's and Gender Studies at the University of Texas at 
Austin. She is also currently serving as Co-Chair of the Gender Equity 
Task Force that was appointed by Provost Steven Leslie. She received 
her B.S. in government at Cornell University and her Ph.D. in political 
science from MIT. Professor Ritter specializes in studies of American 
politics, constitutional development, and gender politics from a 
historical and theoretical perspective. She has published two books as 
well as numerous articles and essays. Her current research examines the 
impact of work-family issues on gender equity in the United States. 
Professor Ritter has been a Faculty Fellow at Princeton University, a 
Liberal Arts Fellow at Harvard Law School, and has received a National 
Endowment for the Humanities fellowship.

                               Discussion

    Chairman Baird. Thank you, Dr. Ritter. I very much 
appreciate the comments and will now proceed to questioning. 
The standard procedure is that each Member gets five minutes 
for questioning. We rotate back and forth across the sides.
    A question from me is I hear a lot of praise of the ADVANCE 
program. My assumption would be, probably, that institutions 
that have applied for the ADVANCE program are already pretty 
savvy to this. And so you have got--meaning that at least 
somebody in leadership at that institution says we need to 
address this; hence, they apply for the grant. So my question 
would be what can we do to expand that, learn from what has 
worked in ADVANCE and then expand that to other institutions?
    Dr. Hrabowski, you are prompt with a hand up, so----
    Dr. Hrabowski. I am, because, first of all, and I think 
Donna would agree with me on this, unlike in companies, 
presidents can't make people do many things at universities. It 
is called consensus building and shared governance and 
committees that take more time than you might expect sometimes.
    What am I saying? So you can talk about bringing people----
    Chairman Baird. They call it, Doctor, the faculty senate 
for a good reason.
    Dr. Hrabowski. Touche. I will tell you this: it seems to me 
the people who are applying have some people on that campus who 
realize there are issues. But one of the reasons they are 
applying is there are challenges.
    Now, this is one thing that I have to say, and I can say 
this as an African American. I have met so many scientists who 
are not aware of the issues or who don't necessarily believe 
there are these issues, and they are good people. But we are 
all products of our environment. Whether it is about increasing 
the number of minorities on the faculty, or increasing the 
number of women, people need education at every level. It seems 
to me, as we develop these ADVANCE campuses, we need incentives 
to continue applying what we've learned and incentives to 
replicate.
    To use what we are learning, we have a group of faculty 
from the University of Michigan on our campus, a group of 
people who came and worked with our faculty. It was great. And 
so I think we can--we need incentive, though, to do that kind 
of work. I also think that as we think about all of the NSF 
funding that goes out into the campuses, we need ways of 
substantively tying these issues together. I really believe so. 
People will listen to money. I mean when you talk about the 
money that you have.
    I do want to recommend that you look at page four of my 
testimony. There is one point to be made here. This is a 
picture of all of the women who came our Faculty Horizons 
Program. Half of these women are women of color. I wanted to 
make this point about this. What it did for my campus was to 
say to the departments people exist who have Ph.D.s who are 
Black and Hispanic women. We need to look at those women, talk 
about developing them, helping them with post-docs, thinking 
about them for faculty positions so that while we want to 
continue increasing the number of women of color, the fact is 
there are more out there than we might think, and companies do 
a much better job than universities.
    NSF can help us in bringing these women to our campuses, 
getting to know each other, and building that momentum.
    Chairman Baird. Very well said. Dr. Shalala.
    Dr. Shalala. I just want to tell a quick story, parleying 
on what my colleague said here.
    My proudest moment at the University of Wisconsin Madison 
was when an African American woman said to me that we had hired 
so many African American women she didn't have to like them 
all.
    Chairman Baird. That is a great story. You know, we had 
tried to embody this earlier. I acknowledged the staff. I 
should note that when I mention staff, the senior staff are 
both doctorates in science, and they are both sitting right 
next to us, both women. This committee, particularly under Vern 
Ehlers's leadership on the Republican side, but Bart Gordon on 
the Democratic side, has made a commitment to this.
    You mentioned the incentives, Dr. Hrabowski, but one of the 
things that I note is when you apply for tenure, it is 
basically your personal research productivity. You get about 
zero credit for having mentored--and I have been through this 
process--for having mentored young students. And so the 
incentives for our faculty to bring young students along the 
line and move them into the track towards graduate school is 
near nil. I don't know if you have identified any institutions 
that include some credit for mentoring or graduate students 
acceptance or admission along the way, but it would be an 
interesting thought--or if you have included it in your own 
practices. If you have a faculty member who mentors young 
students, do they get credit, because my experience has been 
that many times women faculty are particularly more interested 
in bringing along the next generation, but at their own 
detriment when it comes to tenure application.
    Any thoughts on that? Dr. Olsen.
    Dr. Olsen. Actually, I have couple things. First of all, 
you know that we actually provide Presidential Awards for 
Mentoring, and his institution has won, I think, two. The 
Competes Bill also has some interesting comments on mentoring 
that the National Science Foundation is taking to heart. In the 
NSF geosciences Directorate, we have a requirement for the 
grant proposal that when they have graduate students in that, 
that they talk about the mentoring within that grant.
    So we are really moving towards that because we know that 
mentoring does work.
    Chairman Baird. Dr. Ritter, you look like you may have a 
though on that.
    Dr. Ritter. Yeah, I think you are finding women and 
minority faculty doing more than their fair share of the 
mentoring is a real concern. I think what often happens, what 
has been noticed at our institution and happens elsewhere as 
well, is a lot of women get stuck at the midlevel and never 
make it to the senior level, essentially, because they are 
taking up more of a service burden because there are too few of 
them.
    Chairman Baird. Dr. Hrabowski.
    Dr. Hrabowski. The institutional culture has everything to 
do with this. It seems to me two things, number one, the NSF 
IGERT grants are great in terms of training and having 
incentives for people to get involved in working with students 
in this, but we are convinced that by having an individualized 
faculty-development plan for women and for faculty in general 
to know exactly what is expected and to make sure that the 
person isn't overwhelmed is very important because women are 
often asked to do far more than people even realize because 
they are good at doing it. And we need a culture, though, that 
makes sure that someone is working with that young woman to 
make sure she is not overdoing in some areas that will not help 
her move towards tenure.
    Chairman Baird. I am going to move Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. First of all, two 
quick comments on the testimony. Dr. Shalala talked about 
sports and the NCAA. The obvious solution is to designate the 
sciences as sport.
    Dr. Hrabowski. By the way, chess is a sport in Russia.
    Mr. Ehlers. That is right. Chess already is a sport.
    But there are two advantage to that. First the NCAA rules 
would apply, but secondly, you would also share in the football 
revenues.
    The other comment is, Dr. Hrabowski, you made a comment 
about the politics, faculty politics. It reminds me of when I 
first got into politics. One of my colleagues commended me and 
said I am just amazed. You know, you come from academia, and 
you just really understand the politics around this place. I 
said, well, frankly, this is real politics. It is a lot easier 
than academic politics.
    Dr. Hrabowski. Where the pie is much smaller.
    Mr. Ehlers. Anyway, back to business. Pardon me.
    First of all, insight from any of you on this: there are 
some professions that have done pretty well at achieving close 
to 50/50, medicine, law--that is not much a science, but 
nevertheless, it was traditionally male--and there are various 
other professions. Have you any of you looked at that and 
analyzed how that happened as--particularly in medicine which 
is science related, compared to the problems you are 
encountering? Is there something unique about the universities 
that limits this?
    Dr. Campbell. This is exactly something that I have been 
curious about. How is that fire departments and police 
departments are more integrated than physics departments? How 
is it that the navy is more integrated than physics 
departments? And part of the answer, frankly, comes from the 
ability to have true, top-down decision made. And that is 
something that in many fields in academics, a top-down decision 
to try to do something like that is going to be met with 
resistance from everyone involved, and exactly the opposite 
effect is going to be achieved.
    I don't think that the kinds of solutions that we are 
seeing in those other kinds of fields are practical here, and 
so many of the kinds of things that we have to do really are 
changing the climate, as we have talked about, and that has to 
occur at the stages where the everyday interactions and the 
everyday decisions are being made.
    Mr. Ehlers. Thank you. Dr. Ritter, you wanted to answer 
that?
    Dr. Ritter. Yes, I would just have a couple of things. One 
is that one issue in academia, I think, is the coincidence of 
tenure track with family formation creates particular stresses. 
I think one of the reasons why medicine has done better is that 
it is easier to be a successful professional and not have an 
80-hour-a-week job. You can't do that as an assistant professor 
at a top research university.
    Law, actually, I think it really depends on which field of 
law we are talking about. There are very, very few women 
partners still at major firms.
    Mr. Ehlers. Dr. Shalala?
    Dr. Shalala. Thank you very much. Actually, we have done 
pretty well in medical schools in terms of students and in law 
schools in terms of students. It still gets narrower when you 
go to the top in terms of the tenure faculty appointment in 
medical schools. The reason the numbers look better is because 
women go into the clinical tracks, and there we can have 
flexibility in terms of how many hours you work. So we still 
see the same things in medical school in terms of chairman 
positions, tenure-track positions, moving to full professors, 
where the numbers aren't very good.
    There is no question the pool is huge, and I think that is 
our fundamental point. Elementary and secondary education has 
done a terrific job in terms of encouraging young people, women 
in particular to go into science. We have these huge pools at 
the undergraduate level. At the graduate level it gets 
narrower. In the great research universities, it gets even 
narrower.
    That is true in medicine, but in medicine, they have 
another kind of track called the clinical track, and that is 
where you will see larger percentages of women.
    Mr. Ehlers. This relates to a follow-up question, and that 
is do you have any data or do you have any idea how many women 
will choose, in a particular situation, to go into some other 
profession rather than university teaching because of these 
factors?
    Dr. Hrabowski. Let me start with women in general and women 
of color. As we have produced Ph.D.s on our campus and then 
sent them other places, I have listened to the voices of those 
new Ph.D.s in science, women and women of color, and what I 
find is the quality of mentoring has been very uneven. When the 
advisor is very supportive, you will have a greater probability 
that that young woman will think about post-doctoral 
experiences and the possibility of going into university. 
Unfortunately, when the advisor has not understood the role 
that he could have played--and it is often he, quite frankly--
or has just not understood the challenges she has faced, the 
person wants to leave the academy because companies are much 
more welcoming.
    What others will tell you is, to the extent that it has 
been a terrible experience--and you talked about this earlier. 
If they have not had a great experience--and I talk about it in 
my testimony with a woman who just said it has just been a 
lonely road, and I don't want this anymore. So the quality of 
the experience while in grad school, the quality of mentoring 
will determine the extent to which the person may even consider 
the possibility of continuing on to a post-doc.
    Mr. Ehlers. Dr. Olsen, you----
    Dr. Olsen. I just wanted to point out again, that right 
now, 52 percent of the majors in science in the undergraduate 
level are women, and one of the things that the National 
Science Foundation has been really fostering as well is the 
fact that a Ph.D. really opens up the way that you think. And 
people go to law school, not because they are going to practice 
law, but because it opens up opportunities, and I think people 
here, with the number of doctorates sitting up there, knows 
that earning that degree in science or engineering really can 
open up a lot of careers, and some are more supportive for 
women and industries tend to really--have gotten onto the 
childcare and these issues. I think the academy is learning 
that this is a critical component. But we are really trying to 
get more people, males, females, under-representeds, to 
actually major in science and engineering all of the way to the 
Ph.D. levels and then hopefully have a plethora of career 
opportunities for them, waiting for them.
    Chairman Ehlers. Thank you.
    Mr. Baird. Thank you, Dr. Ehlers.
    You know, reflecting on my own graduate experience which 
was somewhat mixed in terms of the enjoyment level, it may be a 
manifestation of the superior intelligence of women that so 
many drop out of the graduate program.
    Dr. McNerney.
    Mr. McNerney. Well, I have to say your testimony, all of 
you, has been energetic. It has been interesting, informative, 
and hopefully, we can make some progress here.
    Dr. Shalala, in your testimony, you report a dreadful 
number, 15 percent of full professorships are women. Some of 
that might be due to legacy effects. Is there any more 
encouraging news in the last five or ten years on that subject, 
or is there any statistics in that?
    Dr. Shalala. There are statistics. It is not increasing 
much. We look specifically at the major research universities, 
so that is where the difficulty has been. We looked at the top 
research universities, where federal money is going, NIH money, 
NSF money, because we though it was important that if the 
United States is investing its scientific moneys in the great 
research universities in this country, then we can expect them 
to expect that the personnel will be the most talented, so we 
focused there.
    You know, the numbers are getting better, not fast enough 
given the pool. The interesting thing about the study--and I 
actually didn't want to chair this panel, not my subject of 
expertise. I sort of got talked into it by the National 
Academies into doing it. But what I learned was that the pools 
are there for the first time.
    We used to say, you know, we got to develop the pools. That 
was our excuse. The pools aren't there. And what I mean by that 
is the 52 percent. There are women studying science, and that 
is why I give praise--somehow the elementary and secondary 
education has excited young women about science enough so they 
are majoring in it in our major colleges and minor colleges and 
universities, frankly. But to get them to the Ph.D. level, even 
when they get there, they don't seem to get the jobs at the 
major institutions. That is why we know that there are cultural 
issues. There are sensitivity issues. There are opportunity 
issues. There is a network that needs to be worked. That is why 
we are so optimistic, because it is not the pool issue anymore. 
It is our behavior.
    Mr. McNerney. Well, one of the things we have talked about 
this in this committee is the deterrent for people to go into 
science and research in general because the compensation is 
poor. The number of years it takes to get to a good position, 
and then once you are there, again, the compensation is that 
not that great compared to what you could be doing in industry, 
so I think we are in trouble in general on this issue, and one 
of the things I like to soapbox about is how we really can't 
afford to leave anyone behind. Our nation needs to pick up 
every single person of any color or any background or any 
religion, because we need them for our future challenges. And 
anything we can do to encourage that is something that is our 
responsibility and our duty, so we look forward to your good 
ideas.
    Dr. Hrabowski.
    Dr. Hrabowski. I really do want you to remember too, 
though--and I have to say this--that while we have a few more 
African Americans, for example, and Hispanics making it at the 
Ph.D. level, women or men, the fact is that you still only have 
about five percent of the Ph.D.s going to African American in 
the country, so there are still very few women of color, Black 
and Hispanic, from certain groups, who are at the Ph.D. level, 
and I think it is so important to keep thinking about both of 
these issues.
    When I was a grad student in mathematics at Illinois, there 
was only one woman in the whole department of mathematics. She 
understood how alone I was, and she connected to me, and that 
is why I know from personal experience, quite frankly, that 
white women and kids of color, there is a connection there 
because of the loneliness that they feel, and it is important 
to think about how we keep building both of those pools.
    Mr. McNerney. Well, what specific steps would be most 
effective in terms of academic roles in terms of getting women 
and people of color to move into these spaces?
    Dr. Hrabowski. Just to suggest that for the women that we 
get--it is so interesting to me. We need incentives to help 
institutions work with the researchers, mainly the guys, to 
pull women in as post-docs and to pull them in to think about 
faculty positions and to give them the kind of support that 
males just get naturally, in the bathroom, on the golf course, 
on the basketball court. I mean it may sound trite, but it is 
so true. I see it all the time. The woman just wasn't in the 
room when certain discussions were being held. And mentoring is 
a very important part of that. We still have many people who 
think mentoring is warm and fuzzy stuff, not realizing that we, 
males, in general, get much more mentoring than we realize.
    Mr. McNerney. Well, we certainly recognize the importance 
of mentoring all of the way from kindergarten on up, so that is 
something that we could think about in our role. Thank you very 
much. I yield back.
    Dr. Hrabowski. Economic incentives, financial incentives. 
It makes the people listen to the money talk.
    Mr. Neuberger. Well, as you can tell, at this end of the 
table, from here, that direction, are all doctors, and I dumb 
down the room by bringing a business guy into the room, and so 
I thank the Chairman for having this hearing.
    Dr. Ritter, it is always good to have a fellow Texan here, 
and our Red Raiders are going to--speaking of football--going 
to come down and visit you all in just a few weeks, and I hope 
you will be kind to us.
    I would like a little bit of bragging, before we talk some 
questions here. But I went to Texas Tech University and had the 
honor and privilege of representing Texas Tech University, 
where I believe we have about 12 schools there, and five of our 
deans are women. And so I think there is some progress being 
made, and obviously from listening to the panel today, I hear 
that we need to make some more progress.
    I want to go along a couple of question. The title of this 
hearing, and we have gotten off on some interesting topics, but 
Women in Academic Science and Engineering, and when you look at 
some of the charts, in some areas, women are increasing in 
number, and in fact a majority in coming into some of the 
sciences, life sciences, and some of those. I think 52 percent, 
we use that number.
    And so a couple of questions, will it take us time--I mean 
I come from a tradition--and probably what would happen today--
I have two grandsons. I had two sons, and so we gave them 
Lincoln Logs and erector sets and microscopes and stuff like 
that, and if I had a granddaughter, I would want to be dress 
her up and dolls, and so we kind of set a precedent early on in 
kind of classifying what roles that young women have, and that 
is probably a maybe a mistake on granddaddy's part.
    But the other piece of that is a lot of the women that are 
going into the sciences and going into law and medicine, that 
produces high income for them outside of the academic world. 
And so is the fact that a lot of women are not staying in the 
academic world related to the fact that they don't see a lot of 
role models in the academic world, or is this entrepreneurial 
economic opportunity out there that corporate America has 
provided where women seem to be, in some fields, moving up 
through the ranks a little faster? Are they being funneled out 
in that way, instead of staying in academia?
    Dr. Shalala.
    Dr. Shalala. You know, we didn't find that at all. We found 
that they were being turned off and discouraged moving up. 
There is just no way the economic incentives of the private 
sector is pulling off that many women, that there really are 
barriers here and discouragement and a lack of encouragement 
and a lack of mentorship, a lack of strategies, narrow search 
processes.
    What my colleague here was talking about is, you know, if 
you really want to find a minority woman in science, you can't 
just pick some narrow field that you are going to recruit in. 
You have got to broaden your recruiting opportunities, and I am 
sure that Dr. Campbell found that in physics as well, that you 
have to try different strategies.
    But you know, it is just--we are not convinced it is a pool 
problem. We are convinced that there are barriers and bias from 
both women and men that we have to overcome. Economic 
incentives help. Economic incentives, you know, as a 
businessman, changes behavior. And if we are going to plow 
billions of dollars into science in this country, our only 
issue is, not that you have got to hire women to do it, but you 
have got to hire the best people. And if that is the standard, 
we believe that women will get a fair shot. And we just have to 
make sure that we don't have those barriers there.
    All of us have stories from our own careers, of crazy 
things that people have said to us, and we are lucky we are 
here today.
    Mr. Neuberger. Dr. Olsen.
    Dr. Olsen. Yeah, I love data, okay, and there is this 
wonderful chart from Nelson and Rodgers, and it is in biology, 
where they show that both males and females in 2002 were equal 
numbers in terms of getting their Ph.D.s. But then when you saw 
the first faculty position, it was something like 70 percent 
males and 30 percent women. And yet, they are there, and they 
are asking did you want the faculty position or did you want to 
go elsewhere? And it turned out that the women were just not 
getting interviewed. And the women that did make it to the 
interview stage were then very successful in terms of getting 
the job, getting back to your report, in terms of the implicit 
thing.
    But salary still is an issue, and this is true in academic, 
but throughout, women tend to make less salaries for the same 
positions as males. And what is interesting--and I will do a 
story--but when I was at my university, it was a research-
intensive university. I had my own NIH grant, and I was co-PI 
on the grant, the PI on the NIH grant was out, and I realized 
that the post-docs on the grant that I was co-PI on were making 
more money than I was, and it was a shocker, and of course. It 
was--my personality--I got a raise! But the thing is that we 
don't know a lot of this stuff, and so it is really, again, the 
culture, the mentoring, in terms of what the salary is.
    Dr. Shalala. The professional journals have had to take 
off--send out the journal articles blind to make sure that you 
could overcome the bias. Members of my panel told me they used 
their initials early in their careers when they sent out their 
journal articles to make sure they got a fair review of those 
articles.
    Dr. Campbell. I would like to come back to your question 
about is it the economic incentives? And all of my anecdotal 
evidence in talking to people who have decided to go out, the 
answer is no. That is not what the incentive is.
    I would also like to come back to the question of 
mentoring. Mentoring is very important. This is one of the 
lessons that we have learned from ADVANCE. And in my 
department, we have now instituted formal mentoring for all 
junior faculty. In addition, we do take into account junior 
faculty's mentoring of students in their tenure-review process, 
so mentoring is something that is taken very seriously.
    I also want to come back to your question about how long is 
it going to take? Again, this was something that was sponsored 
by NSF and the Department of Energy. The American Physical 
Society hosted a meeting of all of the chairs of physics 
departments, and I served on the panel for that, exactly 
addressing this kind of issue. And out of that meeting was a 
stated goal that we want to double the number of women in 
physics departments in 15 years. And the 15 years allows us to 
say there are two components to this problem: there is the here 
and the right now, and this is something that is being 
addressed with ADVANCE. And there is what are we going to do 
for training students who are coming up? What are we going to 
do to for undergraduates and graduate students and post-docs? 
Attention has to be placed there as well.
    And finally, I can't not make a football comment. Michigan 
also has a football team, and it is my personal goal, I want a 
physics department which is going to make our football players 
proud to say I am from Michigan.
    Mr. Neuberger. Dr. Hrabowski.
    Dr. Hrabowski. Two points, you know, you may not know it, 
but a part of the mentoring for women is teaching them how to 
negotiate. It is very interesting that guys go in being much 
more aggressive, and older guys like us can be so responsive to 
the aggressiveness and just assume that the woman doesn't need 
it because she didn't ask for it. So the negotiating process is 
very important in all of this work.
    And the other point is, in terms of things that can be 
done, I think that--and it was something that Dr. Campbell just 
said--the idea of using the societies, the different 
disciplinary society, and having leveraging with NSF with 
physics and chemistry and biology and the different subgroups 
to have sessions that focus on this, because if people haven't 
been around the discussions and a part of it, they tend to see 
it as something that is not as serious an issue. And it needs 
to be known that the country sees it as a very serious issue.
    Chairman Baird. We are going to probably have time for just 
two more sets of questions, and then--this time, Pavlov was 
right. We do have votes coming up now.
    Having been in academia and having been through a period 
when diversity training and sensitivity training was big at my 
university, followed by a drop in enrollment--totally 
unrelated, just the demographic bubble went down that year--and 
then it became necessary to lay off a bunch of faculty, and it 
was taken for granted that the most recently hired faculty 
would be the first to go, which meant persons of color and 
women, and as a untenured white, male faculty member, I said we 
ought to stop that, which meant, frankly, that the women behind 
me would have been able to jump me. But it was the right thing 
to do, but you should have seen the outcry. This was within two 
year of this sensitivity-training workshop, and then suddenly, 
it is like wait a minute. It only goes so far here, bringing 
people on board.
    The reason I preface with that without a hammer--it seems, 
you know, academia likes to think of itself as superior to 
every other institution in the world, but we have cited 
examples of police, military, business, et cetera, that I think 
is actually much more progressive than the academic world. And 
my question would be what kind of hammer can we use or should 
we use, and relate it to Dr. Shalala's observation about NCAA 
or Title IX. What would enforcement of Title IX--Dr. Ritter 
noted this--what would that enforcement look like? So what can 
we do to put some pressure on, from not just a positive model, 
which I think are very meritorious like the ADVANCE program, 
but real-world, pressure, consequences if you don't do it from 
federal funding or other operations.
    Dr. Ritter. In terms of enforcement, I think there are a 
couple of things. One is I think that presidents and provosts 
need to be willing to hold their deans accountable, and deans 
need to be willing to hold their chairs accountable for things 
like whether or not they have diverse pools or their 
willingness to invite diverse candidates to campus, for their 
ability to meet goal that have been set and agreed upon. Unless 
you are willing to say you can't hire next year because you 
haven't made a good-faith effort to diversify your pool, then 
it is not going to have.
    Chairman Baird. You have got to have that kind of top-down 
consequences.
    Dr. Ritter. You have to have that kind of accountability. 
And in terms of Title IX enforcement, I do think we need to be 
thoughtful abut what effective compliance would look like 
there. I know there is a lot of debate about this right now, 
and I don't know that the right model is going to be something 
like the athletic model, but we can only improve on what we are 
doing now, because currently, virtually nothing is being done.
    Dr. Shalala. We talked in our panel, and we have some 
language in here about developing an NCAA type of organization, 
something between the universities and the government that 
would, as opposed to using a government agency as such, that 
would thoughtfully develop the goals and be realistic about it 
in terms of marching towards a much fairer system, and that, 
certainly, is worth looking into.
    Unlike the NCAA, though, the Federal Government really does 
have the clout of money, requiring that--I mean NSF is a model 
for calling in department chairs. These are pretty 
straightforward things to do, but we should not be focusing 
just on NSF. The big dollars are in the National Institutes of 
Health, and if the NIH, through their institutions, aren't 
fully participating, then we don't have a chance of getting 
this done in the major research universities.
    Chairman Baird. Well put. Dr. Campbell, you were going to 
say something?
    Dr. Campbell. Yes, our department did have a Title IX 
audit. NASA came in and audited our department for Title IX 
compliance, and the effect of that was almost nothing, that we 
were totally in----
    Chairman Baird. Shucks, I thought you were going to say it 
rocked us.
    Dr. Campbell. So perhaps there are places where they 
clearly are in violation of the law, clearly are in violation 
of Title IX, but I think it is, as you said in your 
introduction, a much subtler problem, and has to do with the 
climate, and it does not have to do with a flagrant violation 
of the law.
    Dr. Hrabowski. We have got to get people to believe that 
this is not just the right thing to do, but it is the best 
thing for science. And it seems to me that hammers don't work 
the same way in universities. This is my sixteenth year as 
President. Believe me; I know what I am talking about. But 
money does talk, and the idea of leveraging the federal 
funding, NASA, NIH, NSF, in such a way that you can encourage 
institutions that are making a difference in this area through 
grants and training, for example, that will be connected to the 
research infrastructure in such a way that places will want to 
be in this. I mean places want to be a part of NSF with the 
ADVANCE grant. ``Every time I go to speak at a university, the 
first question they ask is how can you talk to us about what 
you're doing with NSF?'' Presidents ask me, ``Talk to my 
faculty, engineers, and tell us how great it is and what it 
does.'' I think if we can use the mechanisms we have and 
leverage opportunities to bring different national agencies 
together, institutions listen to the National Science 
infrastructure because they have the money, and there are ways 
of doing it without it coming across like a hammer, but rather 
in a way of highlighting the best in training and diversity and 
in science infrastructure.
    Dr. Shalala. I absolutely agree with that. I really think 
that to get this right we have to understand the culture that 
we come from and those incentives will make a difference. But 
it is also professional organization and accrediting 
organizations, and in addition to the major funders, the 
professional organizations have come a long way, but they have 
a long way to go yet.
    Dr. Olsen. But it is not just good for science, it is good 
for America. It is good for our economy and well being, and 
that is the point that needs to be infused throughout.
    Chairman Baird. I think that might be an appropriate final 
comment for this hearing. I really have been enlightened and 
inspired by this hearing. I am grateful for the witnesses. We, 
unfortunately, have to go vote, but rather than holding you 
here for another set of questions, because the votes can take 
longer than we would like, I would just express my gratitude on 
the part of the Committee for all of your work on this, and we 
look forward to pursuing this vigorously in the future, and 
this hearing now stands adjourned.
    [Whereupon, at 3:22 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Donna E. Shalala, Professor of Political Science; 
        President, University of Miami

Questions submitted by Representative Vernon J. Ehlers

Q1.  Many of you emphasized that as higher education administrators, 
you do not mandate change but encourage it in little ways at all 
levels. What would be the worst thing(s) Congress could do 
legislatively? What would be the best thing(s) Congress could do to 
help improve the environment for female faculty in S&P

A1. The worst thing Congress could do legislatively would be to mandate 
a one-size fits all solution for all university campuses: For example, 
mandating that the professoriate be 50 percent women. While such a goal 
would be desirable, using a federal mandate to obtain it is not. The 
effect of a de facto quota would likely be to increase tensions among 
faculty and thus actually worsen the campus climate for women.
    The Beyond Bias and Barriers report recommends several actions at 
the federal level. One of the primary recommendations is for Congress 
to mandate that federal grant-making agencies implement a Title IX 
review of recipient organizations. Such a review would be based on data 
collected by individual institutions and organized and maintained by an 
inter-institutional NCAA-like oversight organization. Congress could 
partially fund such an inter-institutional effort, and those 
institutions that participate could be provided technical assistance 
with data collection procedures and compliance with anti-discrimination 
laws. In conjunction with regular Congressional oversight hearings of 
federal enforcement and granting agencies, such an approach could be 
very effective in encouraging adequate enforcement of anti-
discrimination laws.
    Another option is for Congress to increase funding for federal 
agency programs, such as the NSF ADVANCE program, whose goal is to test 
a variety of data collection and anti-discrimination compliance 
programs in situ on campuses across the Nation. Such a strategy has 
been shown to not only stimulate research at our nation's universities 
and colleges but also to improve the recruitment and retention of women 
in science and engineering programs and careers. To support campus 
efforts, Congress could request that federal agencies support regular 
national meetings of scientists and engineers to disseminate the 
strategies found to be successful through such research efforts.

Questions submitted by Representative Ralph M. Hall

Q1.  When asked about how medicine has overcome biases barriers present 
in science and engineering, you mentioned a clinical track in the 
University of Miami's medical program that many women choose. Can you 
explain this clinical track and explain how it differs from the other 
tracks available in the school of medicine? Why does this track attract 
more women than other tracks?

A1. The University of Miami's Miller School of Medicine's clinical-
educator track: The clinical-educator track at the Miller School of 
Medicine is intended for faculty members whose primary professional 
activities are teaching and clinical services, as opposed to research. 
The intent of having different tracks is to allow promotion criteria to 
match the professional focus of a faculty member. Faculty members who 
focus their time and talent on clinical and education duties would not 
be promoted if the only criteria were based on achievements in 
research. In the clinical-educator track, promotion is based on 
tangible contributions in clinical-education. For the assistant and 
associate professor level, impact should be in the local, regional and 
State environment; national contributions are required to achieve full 
professor status.
    Current implementation of a track system remains challenging 
nationwide. The definition of tangible contribution in education is 
elusive. In research, contributions are literally counted, in terms of 
numbers of publications, the prestige of the journal in which faculty 
members publish and sustained level of grant funding. We lack similar 
quantifiable means of measuring education impact. Thus, even in current 
clinical-educator tracks, promotion standards remain slanted toward 
publication and grant funding.
    Over time, the goal is to align promotion and tenure criteria to 
reward educators' academic impact. This would mean a promotion review 
that recognizes factors such as curriculum development, innovation in 
clinical care or education, and impact on policy and funding of medical 
education.

    Why does this track attract more women than other tracks? 
Nationwide, women in academic medicine are more likely than men to 
choose roles in clinical care and education rather than research. At 
UM, more than half of women faculty members define their roles as 
mainly in teaching and clinical services. Factors contributing to this 
trend in professional choice may include the time pressures of familial 
responsibilities and child-bearing, a lack of female role models and 
mentors in academic medicine, and perceived barriers for women to 
succeed in research.
                   Answers to Post-Hearing Questions
Responses by Kathie L. Olsen, Deputy Director, National Science 
        Foundation

Questions submitted by Chairman Brian Baird

Q1.  Another witness from the panel, Myron Campbell, recommended that 
the National Science Foundation (NSF) create a postdoctoral fellowships 
program analogous to its Graduate Research Fellowships program to 
enable faculty to draw from a larger pool of applicants. One of the 
findings from the ADVANCE program has been that open, broad based 
searches result in a larger, more diverse pool of applicants. Dr. 
Campbell argued that while universities can implement this process on 
their own with respect to recruiting new assistant professors, most 
don't have the resources to do the same for post-docs, who are most 
often recruited through small, informal networks to the exclusion of 
everyone else. Has NSF considered creating a postdoctoral research 
fellowships program? Please elaborate on any plans to create such a 
program or explanation for not pursuing this option.

A1. The National Science Foundation (NSF) currently has several 
postdoctoral research fellowship programs managed within the research 
Directorates and Offices (see attached list of programs). For example, 
the Directorates for Biological Sciences (BIO) and for Social, 
Behavioral, and Economic Sciences (SBE) currently jointly sponsor a 
program of Minority Postdoctoral Research Fellowships and Supporting 
Activities that provides postdoctoral fellowships, research starter 
grants, and travel grants. This program was evaluated in 2004 by SRI 
International (EEC 9815246), which concluded that the program was 
meeting its broad goal of preparing scientists from under-represented 
ethnic groups at advanced levels for academic positions and leadership 
in industry and government. In addition, many postdoctorals are 
supported by NSF through research awards made to university faculty 
members and to research centers.
    We also note that several ADVANCE projects are working on the 
development of systemic approaches to facilitate the identification of 
a more diverse pool of talented potential postdoctoral fellows for 
universities to track and develop as future faculty. For example, in 
late 2006, Rice University created a National Female Ph.D. and 
Postdoctoral Database (http://www.advance.tice.edu/database/), drawing 
from applicants to its ADVANCE-funded workshop on ``Negotiating the 
Ideal Faculty Position.'' At this time there are over 700 scholars in 
the database, and hundreds of visitors to the site have made use of it 
as part of recruitment outreach. Taking a different approach, the 
University of Illinois Chicago ADVANCE program recruited nationally in 
order to bring in a cohort of ADVANCE-supported postdoctorals to 
increase the number of well qualified female candidates for faculty 
positions.

Q2.  Title IX of the Education Amendments of 1972 prohibits 
discrimination on the basis of sex in education programs and activities 
receiving any federal financial assistance. A 2004 GAO Report (GAO-04-
639) found that only Department of Education had conducted the required 
periodic compliance reviews, and that the granting agencies had not 
effectively coordinated the implementation of compliance reviews. 
Please describe how NSF has responded to the GAO recommendations in the 
three years since the report, including any plans to implement periodic 
compliance reviews as well as efforts to coordinate implementation with 
other granting agencies.

A2. As for the second question, NSF takes seriously its responsibility 
to ensure that the educational and research institutions that it funds 
comply fully with Title IX. Every grant awarded by NSF includes a 
clause whereby the grantee contractually agrees to comply fully with 
Title IX.
    In addition, in accordance with the recommendations in the GAO 
report, we have been working diligently to develop a post award Title 
IX compliance program. To that end, since the issuance of the GAO 
report, we have been exchanging ideas and information with other 
agencies that are establishing or refining their post-award compliance 
review programs, such as NASA and the Department of Energy, to ensure 
that the reviews are meaningful and effective.
    In 2005, NSF conducted an on-site post-award Title IX compliance 
review at Columbia University. After the review was completed, we 
assessed our newly-developed approach to conducting compliance reviews, 
and engaged in additional dialogue with other Federal grant-making 
agencies. NSF determined that a more coordinated Federal approach to 
such reviews might be appropriate to ensure consistency, and to avoid 
the prospect of agencies engaging in duplicative efforts.
    Subsequently, NSF had a series of conversations with the Office of 
Science and Technology Policy suggesting that the National Science and 
Technology Council (``NSTC'') take on the development of a coordinated 
Federal research agency approach to Title IX post-award compliance 
reviews--the NSTC Research Business Models Subcommittee of the 
Committee on Science has been tasked with this coordination.

Question submitted by Representative Vernon J. Ehlers

Q1.  Many of you emphasized that as higher educational administrators, 
you do not mandate change but encourage it in little ways at all 
levels. What would be the worst thing(s) Congress could do 
legislatively? What would be the best thing(s) Congress could do to 
help improve the environment for female faculty in S&E?

A1. It appears that this question is addressed to the three current 
higher educational administrators that were on the panel; Drs. Donna 
Shalala, Freeman Hrabowski, and Myron Campbell.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Freeman A. Hrabowski, III, President, University of 
        Maryland, Baltimore County

Questions submitted by Representative Vernon J. Ehlers

Q1.  Many of you emphasized that as higher educational administrators, 
you do not mandate change but encourage it in little ways at all 
levels. What would be the worst thing(s) Congress could do 
legislatively? What would be the best thing(s) Congress could do to 
help improve the environment for female faculty in S&E?

A1. Congressional legislative action on behalf of women in science and 
engineering has profound implications, not only for those it seeks to 
benefit, but also for those charged with its enforcement. Consequently, 
the worst thing Congress could do is produce expedient legislation not 
informed by the substantial body of research that addresses the unique 
challenges women in these fields are facing in America's colleges and 
universities. Responsible legislative action should reflect current 
studies in the field in order to create effective, multi-faceted, 
approaches to achieving gender parity in science and engineering (S&E).
    Women's full potential in academic S&E across our nation will be 
realized only through a long-term, bipartisan Congressional commitment 
to transforming institutions of higher learning. The accumulated 
disadvantages women experience in these fields reflect a powerful 
history of institutional bias and discrimination in academe. In short, 
such a legacy can be remedied only by sustained Congressional mandates 
for compliance, expanded roles for key federal funding agencies, and 
authorization of additional targeted resources for critical 
initiatives. Accordingly, Congress should consider taking the following 
actions to improve the environment for women in S&E:

1) Continue Funding the NSF ADVANCE Grant Program: Through its 
effective administration of institutional transformation grants, the 
NSF ADVANCE Program has demonstrated a record of excellence in 
establishing innovative models and comprehensive programs that have 
substantially increased the participation of women faculty in S&E. The 
NSF ADVANCE Program's funding of transformation initiatives across a 
broad spectrum of institutions (liberal arts colleges, community 
colleges, Historically Black Colleges and Universities, women's 
colleges, and research universities) has been fundamental to its 
success. Consequently, to ensure the national impact of these efforts, 
Congress should continue funding the NSF ADVANCE Program as a way to 
engage many more colleges and universities in this vital enterprise.

2) Expand Funding to Sustain and Replicate Success of NSF ADVANCE 
Campuses: In oral testimony before the House Subcommittee on Research 
and Science Education, I stressed the importance of expanding NSF 
ADVANCE funding in order to sustain and replicate the success of 
exemplary ADVANCE campuses. NSF provides no funding for sustainability 
and offers only modest support for narrow replication efforts through 
the Partnerships for Adaptation, Implementation, and Dissemination 
(PAID). The lack of federal funding in these areas jeopardizes the 
future impact of the NSF ADVANCE Program because many successful 
campuses do not have sufficient funding of their own to sustain and 
replicate their efforts. As the initial rounds of NSF support end for 
ADVANCE campuses, we are quickly learning that a short-sighted approach 
to continued funding is stalling our efforts to help meet the 
continuing demand for a highly educated S&E workforce. I urge Congress 
to expand the mandate of the NSF ADVANCE Program to provide funding for 
sustaining and replicating exemplary campus initiatives. The recent 
reassignment of the NSF ADVANCE Grant Program to the Directorate for 
Education and Human Resources under new leadership offers an 
unprecedented opportunity for collaboration with undergraduate and 
graduate science education initiatives.

3) Establish Dedicated Federal Funding of Scholarship Programs and 
Training Grants for Under-represented Minority Undergraduate and 
Graduate Students in STEM: Although encouraged by the modest increase 
in NSF's overall funding, I am concerned that NSF resources for science 
education have decreased in recent years. Efforts to remedy the crisis 
in science education funding for innovative programs have been caught 
in a series of fiscal Continuing Resolutions in Congress. In addition, 
current limitations for federal scholarship funding and training grants 
have significantly impeded full participation by under-represented 
minorities in S&E. I strongly urge Congress to look at successful 
training models such as the Meyerhoff Scholarship Program at UMBC.

4) Support Full Anti-Discrimination Compliance and Enforcement: Meeting 
the Nation's demand for a well-trained and inclusive S&E workforce 
requires greater diligence in anti-discrimination compliance and 
enforcement efforts. Federal agencies (especially NSF, NIH, and NSA) 
should leverage their funding to provide incentives for research 
universities to recruit, support, and advance women and minority 
faculty in STEM. This incentive-based approach should be coupled with a 
mandate that federal agencies extend the enforcement of anti-
discrimination laws at universities through regular compliance reviews 
as a condition of continued funding. Expanding the application of Title 
IX of the Civil Rights Act beyond athletics to include academic areas 
as well, especially in S&E, would result in even more substantial 
advances for gender equity.
                   Answers to Post-Hearing Questions
Submitted to Myron Campbell, Chair, Physics Department, University of 
        Michigan

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Many of you emphasized that as higher educational administrators, 
you do not mandate change but encourage it in little ways at all 
levels. What would be the worst thing(s) Congress could do 
legislatively? What would be the best thing(s) Congress could do to 
help improve the environment for female faculty in S&E?
                   Answers to Post-Hearing Questions
Responses by Gretchen Ritter, Professor of Government; Director, Center 
        for Women's and Gender Studies, University of Texas at Austin

Questions submitted by Representative Vernon J. Ehlers

Q1.  Many of you emphasized that as higher educational administrators, 
you do not mandate change but encourage it in little ways at all 
levels. What would be the worst thing(s) Congress could do 
legislatively? What would be the best thing(s) Congress could do to 
help improve the environment for female faculty in S&E?

A1. The worse thing that Congress could do is to say that this is just 
a problem for the universities. Taking a completely hands-off approach 
is not likely to result in significant efforts to improve the situation 
of women faculty in under-represented fields on many campuses.
    One of the best things Congress could do legislatively is to ask 
for greater accountability from universities. Research universities 
depend upon federal research funding. Colleges and universities at all 
levels receive other forms of federal educational assistance. In order 
to continue to receive this assistance, Congress should ask 
universities to be accountable in providing equal opportunity and a 
supportive work environment for female faculty in under-represented 
fields. Applying Title IX standards in academia (as we do in sports) 
would create positive incentives for universities to recruit and retain 
talented women in science and engineering.

                                   

</pre></body></html>
